<html>
<title> - OVERSIGHT HEARING ON WILDFIRE RISK, FOREST HEALTH, AND ASSOCIATED MANAGEMENT PRIORITIES OF THE U.S. FOREST SERVICE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


WILDFIRE RISK, FOREST HEALTH, AND ASSOCIATED MANAGEMENT PRIORITIES OF 
                        THE U.S. FOREST SERVICE

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Thursday, June 7, 2018

                               __________

                           Serial No. 115-48

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
      

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-351 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a> 
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Nydia M. Velazquez, NY
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Ruben Gallego, AZ
Raul R. Labrador, ID                 A. Donald McEachin, VA
Scott R. Tipton, CO                  Anthony G. Brown, MD
Bruce Westerman, AR                  Jimmy Gomez, CA
  Vice Chairman                      Vacancy
Daniel Webster, FL                   Vacancy
Jack Bergman, MI                     Raul M. Grijalva, AZ, ex officio
Liz Cheney, WY
Greg Gianforte, MT
John R. Curtis, UT
Rob Bishop, UT, ex officio

                              ----------                                
                                
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 7, 2018...........................     1

Statement of Members:

    Hanabusa, Hon. Colleen, a Representative in Congress from the 
      State of Hawaii............................................     4
        Prepared statement of....................................     5
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Westerman, Hon. Bruce, a Representative in Congress from the 
      State of Arkansas..........................................     6
        Prepared statement of....................................     7

Statement of Witnesses:

    Christiansen, Vicki, Interim Chief, U.S. Forest Service, 
      Department of Agriculture..................................     8
        Prepared statement of....................................    10
        Questions submitted for the record.......................    12

Additional Materials Submitted for the Record:

    Center for Biological Diversity, et al., June 7, 2018 Letter 
      to Chairman McClintock and Ranking Member Hanabusa.........    48
                                     


 
   OVERSIGHT HEARING ON WILDFIRE RISK, FOREST HEALTH, AND ASSOCIATED 
            MANAGEMENT PRIORITIES OF THE U.S. FOREST SERVICE

                              ----------                              


                         Thursday, June 7, 2018

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:18 p.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Pearce, Labrador, 
Tipton, Westerman, Bergman, Gianforte, Bishop (ex officio), 
Hanabusa, Gallego, and McEachin.
    Also Present: Representatives LaMalfa, Lamborn, and Gosar.

    Mr. McClintock. The hour of 2 o'clock having long ago 
passed us, here we are for another hearing of the House 
Committee on Natural Resources, Subcommittee on Federal Lands. 
I want to apologize for the delay. The good news is that we 
should not be interrupted for votes throughout the hearing.
    I would ask first that the following Members be allowed to 
sit with the Subcommittee and participate in the oversight 
hearing today: Congressman Doug Lamborn of Colorado, 
Congressman Paul Gosar of Arizona, and Congressman Doug LaMalfa 
of California. Without objection, so ordered.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chairman, who we welcome today as Congressman 
Bruce Westerman. This will allow us to hear from our witnesses 
sooner and help Members keep to their schedules. Therefore, I 
would ask unanimous consent that all other Members' opening 
statements be made part of the hearing record, if they are 
submitted to the Subcommittee Clerk by 5 p.m. today. Without 
objection, so ordered.
    Now, we will begin with opening statements.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. I have been looking forward to this 
hearing, because it cuts to the core of the issues confronting 
our forests and the U.S. Forest Service under its new Interim 
Chief, Vicki Christiansen.
    I want to thank the Chief personally for being here today, 
and I especially want to thank her for making the Sierra Nevada 
a top priority of her tenure. A few weeks ago, Chief 
Christiansen took Mother's Day to fly out to California to lead 
a full day's tour of the mountains, the following day, at the 
invitation of Congressman LaMalfa and myself. I cannot thank 
her enough for that conspicuous commitment and for her no-
nonsense approach to our forest issues. I think Gifford Pinchot 
would be proud.
    What we saw on that tour was a small part of the tree 
mortality crisis afflicting our Federal lands. Tree densities 
three and four times what the land can support have led to 
stresses that have stripped our forests of their resilience to 
drought, disease, pestilence and, ultimately, catastrophic 
wildfire.
    The fires in 2017 devastated our public lands, consuming 
more than 10 million acres and costing the Federal Government 
more than $2.9 billion to fight; and 2018 offers us no reason 
for optimism. Approximately 1.7 million acres have already 
burned, and the potential for significant wildland fires in the 
western United States this summer is above normal.
    One of the problems facing the Forest Service is the 
practice of fire borrowing, using prevention funds to fight 
fires. This, of course, produces a negative feedback loop: the 
more we spend on fighting fires, the less we spend on 
preventing them; and the less we spend on preventing them, the 
more fires we have to fight.
    The Omnibus spending bill provides $20.8 billion in new 
budgetary authority over the next 7 years to fund fire 
suppression costs that exceed congressionally appropriated 
amounts. Unfortunately, the Omnibus was long on spending and 
short on forest management reforms, although it did include 
some important provisions: a new categorical exclusion for 
forest resilience projects, 20-year stewardship contracts that 
should increase the prospects to engage contractors, and new 
authorities for the construction and repair of roads to support 
forest management work as part of Good Neighbor Agreements. But 
the fundamental threat to our forests is that outdated 
environmental laws of the 1970s have made it endlessly time-
consuming and ultimately cost-prohibitive to actively manage 
our timber by removing excess growth before it chokes off the 
forests.
    This Subcommittee has held many hearings examining the 
morbid overcrowding of our forests, the effect it has had on 
forest health, and the legal and regulatory acts that have 
produced this crisis. Our oversight findings were incorporated 
into several key bills, the most prominent being H.R. 2936, the 
Resilient Federal Forests Act, by our resident forester and new 
Vice Chairman, Congressman Westerman of Arkansas. It passed the 
House on November 1, 2017, and has since languished in the 
Senate. That is a song we have heard before.
    Although the Omnibus bill fell short of necessary reform, 
it provided what the Forest Service has asked for: some new 
authorities and much new money to carry out excess timber 
before it burns out. And let there be no mistake, those are the 
only two ways that excess timber comes out of the forest.
    It is estimated that we currently harvest about one-fifth 
of the annual growth in our forests. I want you to think about 
that. If you had five newspapers delivered to your porch every 
morning and you only threw out one of them, how long would it 
take for your house to become a firetrap? That is the condition 
of our national forests today.
    The purpose of today's proceeding is to hear what the 
Forest Service plans to do with these tools, and what 
additional legislation it needs to meet its mission: to manage 
our Nation's forests in a productive and sustainable manner.
    Just as our forest health crisis was not created overnight, 
it will not be solved overnight. It will take clear direction 
and vision from the U.S. Forest Service leadership in 
Washington, a strong resolve and commitment in the field to 
complete the work on the ground efficiently and effectively, 
and engagement from Congress to ensure all levels of the Agency 
have the tools they need to get the job done.
    Once again, my thanks to Chief Christiansen for her 
engagement, her commitment, and her efforts, and we welcome her 
here to testify. But first, a word from our Ranking Member.

    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    I have been looking forward to this hearing, because it cuts to the 
core of the issues confronting our forests and the Forest Service under 
Interim Chief Vicki Christiansen.
    I want to thank the Chief for being here today, and I especially 
want to thank her for making the Sierra Nevada a top priority of her 
tenure. A few weeks ago, Chief Christiansen took Mother's Day to fly 
out to California to lead a full day's tour of the mountains the 
following day at the invitation of Congressman LaMalfa and myself. I 
cannot thank her enough for that conspicuous commitment and for her no-
nonsense approach to our forest issues. Gifford Pinchot would be proud.
    What we saw on that tour was a small part of a tree mortality 
crisis afflicting our Federal lands. Tree densities three and four 
times what the land can support have led to stresses that have stripped 
our forests of their resilience to drought, disease, pestilence and 
ultimately, catastrophic wildfire.
    The 2017 fires devastated our public lands, consuming more than 10 
million acres and costing the Federal Government more than $2.9 billion 
to fight, and 2018 offers no reason for optimism. Approximately 1.7 
million acres have already burned and the potential for significant 
wildland fires in the western United States this summer is above 
normal.
    One of the problems facing the Forest Service is the practice of 
fire borrowing--using prevention funds to fight fires. This produces a 
negative feedback loop: the more we spend on fighting fires the less we 
spend on preventing them and the less we spend on preventing them, the 
more fires we must fight.
    The Omnibus spending bill provides $20.8 billion in new budgetary 
authority over the next 7 years to fund fire suppression costs that 
exceed congressionally appropriated amounts.
    Unfortunately, the Omnibus was long on spending and short on forest 
management reforms. It included some important provisions: a new 
categorical exclusion for forest resilience projects, 20-year 
stewardship contracts that should increase prospects to engage 
contractors, and new authorities for the construction and repair of 
roads to support forest management work as part of ``Good Neighbor'' 
agreements.
    But the fundamental threat to our forests is that outdated 
environmental laws of the 1970s have made it endlessly time consuming 
and ultimately cost-prohibitive to actively manage our timber by 
removing excess timber before it chokes off the forests.
    This Subcommittee has held many hearings examining the morbid 
overcrowding of our forests, the effect it has had on forest health, 
and the legal and regulatory acts that have produced this crisis. Our 
oversight findings were incorporated into several key bills, the most 
prominent being H.R. 2936, the Resilient Federal Forests Act, by our 
resident forester, Congressman Westerman of Arkansas, which passed the 
House on November 1, 2017 and has since languished in the Senate.
    Although the Omnibus bill fell short on necessary reform, it 
provided what the Forest Service has asked for: some new authorities 
and much new money to carry out excess timber before it burns out. And 
let there be no mistake: those are the only two ways that the excess 
timber comes out of the forests.
    It is estimated that we currently harvest only about one-fifth of 
the annual growth of our forests. Think about that. If you had five 
newspapers delivered to your porch every morning and you only threw out 
one, how long would it take for your house to become a firetrap? That 
is the condition of our national forests today.
    The purpose of today's hearing is to hear what the Forest Service 
plans to do with these tools, and what additional legislation it needs 
to meet its mission: to manage our Nation's forests in a productive and 
sustainable manner.
    Just as our forest health crisis was not created overnight, it will 
not be solved overnight. It will take clear direction and vision from 
USFS leadership in Washington, a strong resolve and commitment in the 
field to complete work on the ground efficiently and effectively, and 
engagement from Congress to ensure all levels of the Agency have the 
tools they need to get the job done.
    Once again, my thanks to Chief Christiansen for her engagement, her 
commitment, and her efforts, and we welcome her here to testify. But 
first, a word from our Ranking Member.

                                 ______
                                 

  STATEMENT OF THE HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Mr. Chairman.
    As I have learned throughout my tenure as Ranking Member of 
the Federal Lands Subcommittee, wildfire is a critical issue 
that impacts the lives of millions of Americans every year. Due 
to environmental factors such as climate change, last year was 
one of the largest wildfire years on record, with over 10 
million acres burned throughout the country.
    I have heard deeply concerning stories from my colleagues 
in California and other regions impacted by catastrophic 
wildfire. These fires have impacted Federal, state, and private 
land alike, burning over 12,000 structures and causing millions 
of dollars in damages. Since this truly impacts so many of our 
constituents, their loved ones, and their livelihood, I am 
grateful that we have this opportunity to discuss this year's 
wildfire outlook with the interim chief of the Forest Service.
    The Forest Service is on the front lines ensuring 
communities are safe when a fire breaks out and implementing 
projects to reduce the severity of future wildfires. 
Unfortunately, the mitigation side of that equation has become 
more difficult as wildfire suppression has dominated the Forest 
Service budget. Over 50 percent of the Agency's budget is 
directed to suppression activities, which includes funds 
diverted from activities and projects meant to reduce the risk 
of large catastrophic fires. This has become an unsustainable 
trend, so it is encouraging that Congress was able to include a 
bipartisan package of reforms in the Omnibus passed earlier 
this year.
    That package provided much needed relief to the Agency's 
budget that will free up resources to carry out prescribed 
burns and other restoration projects to decrease wildfire risk. 
It also included new management authorities, like updates to 
the Good Neighbor Authority and a categorical exclusion that 
will make it easier to target fuels reduction projects in areas 
with homes and other residential structures.
    Taken together, the wildfire budget fix and the management 
reforms included in the Omnibus will surely ensure the Forest 
Service has the necessary bandwidth to keep our communities and 
forests healthy. The package was the product of bipartisan 
negotiations and a real accomplishment in this era of divided 
politics.
    That is why Secretary Perdue praised the passage of the 
Omnibus and noted the importance of the wildfire funding fix. 
In a statement to the press, the Secretary said, ``Improving 
the way we fund wildfire suppression will help us better manage 
our forests. If we ensure that we have adequate resources for 
forest management, we can mitigate the frequency of wildfires 
and severity of future fire seasons.''
    It may have taken years, if not decades, where Congress 
finally took steps to fix the Forest Service's biggest problem. 
Our national forests draw millions of annual recreation 
visitors and support thousands of jobs. This Committee has the 
responsibility to ensure that the Forest Service has the 
resources it needs to care for these treasured lands.
    I look forward to hearing more about how the Forest Service 
is utilizing the provisions of this historic deal to maximize 
its efforts to keep our communities safe and our forests 
healthy.
    Thank you, Mr. Chairman. I yield back the remainder of my 
time.

    [The prepared statement of Ms. Hanabusa follows:]
   Prepared Statement of the Hon. Colleen Hanabusa, Ranking Member, 
                     Subcommittee on Federal Lands
    Thank you, Mr. Chairman.

    As I have learned throughout my tenure as Ranking Member of the 
Federal Lands Subcommittee, wildfire is a critical issue that impacts 
the lives of millions of Americans every year. Due to environmental 
factors such as climate change, last year was one of the largest 
wildfire years on record, with over 10 million acres burned throughout 
the country.
    I have heard deeply concerning stories from my colleagues in 
California and other regions impacted by catastrophic wildfire. These 
fires have impacted Federal, state, and private land alike, burning 
over 12,000 structures and causing millions of dollars in damages. 
Since this truly impacts so many of our constituents, their loved ones, 
and their livelihood, I am grateful that we have this opportunity to 
discuss this year's wildfire outlook with the Interim Chief of the 
Forest Service.
    The Forest Service is on the front lines, ensuring communities are 
safe when a fire breaks out and implementing projects to reduce the 
severity of future wildfires. Unfortunately, the mitigation side of 
that equation has become more difficult, as wildfire suppression has 
dominated the Forest Service budget. Over 50 percent of the Agency's 
budget is directed to suppression activities, which includes funds 
diverted from activities and projects meant to reduce the risk of 
large, catastrophic fires. This has become an unsustainable trend, so 
it is encouraging that Congress was able to include a bipartisan 
package of reforms in the Omnibus passed earlier this year.
    That package provided much needed relief for the Agency's budget 
that will free up resources to carry out prescribed burns and other 
restorations projects to decrease wildfire risk. It also included new 
management authorities, like updates to the Good Neighbor Authority and 
a categorical exclusion that will make it easier to target fuels 
reduction projects in areas with homes and other residential 
structures.
    Taken together, the wildfire budget fix and the management reforms 
included in the Omnibus will ensure the Forest Service has the 
necessary bandwidth to keep our communities and forest healthy. The 
package was the product of bipartisan negotiation and a real 
accomplishment in this era of divided politics.
    That's why Secretary Perdue praised the passage of the Omnibus and 
noted the importance of the wildfire funding fix. In a statement to the 
press, the Secretary said: ``Improving the way we fund wildfire 
suppression will help us better manage our forests. If we ensure that 
we have adequate resources for forest management, we can mitigate the 
frequency of wildfires and severity of future fire seasons.''
    It may have taken years, if not decades, but Congress finally took 
steps to fix the Forest Service's biggest problem. Our national forests 
draw millions of annual recreation visitors and support thousands of 
jobs. This Committee has the responsibility to ensure that the Forest 
Service has the resources it needs to care for these treasured lands.
    I look forward to hearing more about how the Forest Service is 
utilizing the provisions of this historic deal to maximize its efforts 
to keep our communities safe and our forest healthy.

    Thank you, Mr. Chairman. I yield back the remainder of my time.

                                 ______
                                 

    Mr. McClintock. Thank you.
    The Chair now recognizes the Vice Chairman of the 
Subcommittee for 5 minutes, Mr. Westerman.

  STATEMENT OF THE HON. BRUCE WESTERMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Westerman. Thank you, Chairman McClintock. And thank 
you, Interim Chief Christiansen, for being with us here this 
afternoon. I would also like to commend you and Secretary 
Perdue on the willingness and the efforts that you are already 
making to make sure that our forests are more healthy in the 
future.
    Today, the Subcommittee meets to examine the steps that the 
Forest Service leadership will be taking to aggressively 
implement new and existing management tools provided by 
Congress. Three years ago, then Forest Service Chief Tidwell 
indicated that nearly 58 million acres of Forest Service land 
were at significant risk for severe wildfire. Fast-forward to 
2018, and that number has only increased. This is a result of 
decades of neglect and mismanagement. I have stated many times 
before that we are simply loving our trees to death.
    Ladies and gentlemen, that death toll will continue to 
grow, and as a result, the number of acres burned and, 
unfortunately, the amount of property and even number of lives 
lost will likely continue to grow, even with taking aggressive 
steps to address the millions of acres of overcrowded, insect- 
and disease-infested timber owned by the Federal Government. 
But the sooner these steps are taken and the more aggressively 
they are implemented, the quicker we will turn the tide on the 
self-induced environmental malfeasance.
    This Committee has reportedly heard from the Forest Service 
about the variety of reasons barring scientific management of 
our Nation's forests. From obstructionist litigation to lengthy 
NEPA reviews to budgetary constraints and fire borrowing, all 
were commonly cited as explanation for the underwhelming 
response to the growing issue of wildfire.
    The 115th Congress has taken some valuable steps to address 
the impediments to active management. Not only did Congress 
allocate nearly $20 billion of additional budgetary authority 
over the next 10 years, but we also included both a brand-new 
categorical exclusion to specifically address wildfire risk and 
increased the stewardship contracting ceiling to better allow 
the Forest Service to partner with the state, local, and tribal 
entities in active management.
    Further, if the Senate would act, they would notice that my 
bill, H.R. 2936, the Resilient Federal Forests Act, passed the 
House with bipartisan support and includes several additional 
management reforms critical to protecting the long-term 
viability of our Nation's forests.
    Folks, Congress, in a bipartisan effort, has addressed fire 
borrowing. We have enhanced and empowered state and local 
collaboration. We have provided the Forest Service with the 
tools it needs to aggressively treat for wildfire and disease.
    My question today is this--with these changes, what is the 
Forest Service going to do? Hopefully, Chief Christiansen will 
address that.
    This crisis is decades in the making. It will take decades 
of sound management to restore our forests to good health. Over 
this window of potential progress, we will undoubtedly witness 
additional years of catastrophic wildfire. This year is no 
exception. As I speak, there are 17 major wildfires burning in 
nine different states. To date, over 1.75 million acres have 
burned nationwide, already eclipsing the numbers burned in all 
of 2016.
    It is because of these fires, and the ones to come, that I 
speak with such a sense of urgency. We must examine today 
specific steps the Forest Service will take to address 
catastrophic wildfires.
    I am also keenly interested in how the Forest Service 
leadership plans on reporting back on its progress. 
Transparent, detailed explanation of the specific actions taken 
to manage and treat diseased and overcrowded acres will be 
necessary to demonstrate to the American people our efforts to 
reverse the years and years of neglect.
    With the right leadership and robust implementation, I am 
confident that the Forest Service can use the tools we have 
provided to roll back the clock on mismanagement of our 
Nation's forests. If we ensure that every authority, every 
management dollar is efficiently and effectively used to treat 
for wildfire, we will have success.
    The ball is in the Forest Service's court. Congress has 
provided budgetary authority and management options. I am eager 
to hear today's testimony, and I am excited to learn about the 
steps being taken to address catastrophic wildfire.
    Thank you, Mr. Chairman. I yield back the remainder of my 
time.

    [The prepared statement of Mr. Westerman follows:]
  Prepared Statement of the Hon. Bruce Westerman, a Representative in 
                  Congress from the State of Arkansas
    Thank you, Chairman McClintock, and thank you Interim Chief 
Christensen for being with us this afternoon.

    Today, the Subcommittee meets to examine the steps Forest Service 
leadership will be taking to aggressively implement new and existing 
management tools provided by Congress. Three years ago, then Forest 
Service Chief Tidwell indicated that nearly 58 million acres of Forest 
Service land was at significant risk for severe wildfire. Fast forward 
to 2018 and that number has only increased, a result of decades of 
neglect and mismanagement.
    Ladies and Gentlemen, that number will continue to grow--and as a 
result, the number of acres burned and number of lives lost will 
continue to grow--unless aggressive steps are taken, immediately, to 
address the millions of acres of overcrowded, disease-infested timber 
owned by the Federal Government.
    This Committee has repeatedly heard from the Forest Service about 
the variety of reasons barring scientific management of our Nation's 
forests. From obstructionist litigation, to lengthy NEPA reviews, to 
budgetary constraints and fire borrowing, all were commonly cited as 
explanation for the underwhelming response to the growing issue of 
wildfire.
    Now, the 115th Congress has taken some valuable steps to address 
the impediments to active management. Not only did Congress allocate 
nearly $20 billion of additional budgetary authority over the next 10 
years, but we also included both a brand new categorical exclusion to 
specifically address wildfire risk, and increased the stewardship 
contracting ceiling to better allow the Forest Service to partner with 
state, local, and tribal entities in active management.
    Further, if the Senate would wake up, they would notice that my 
bill, H.R. 2936, the Resilient Federal Forests Act passed the House 
with bipartisan support and includes several additional management 
reforms critical to protecting the long-term viability of our Nation's 
forests.
    Folks, Congress has addressed fire borrowing. We have enhanced and 
empowered state and local collaboration. We have provided the Forest 
Service with the tools it needs to aggressively treat for wildfire and 
disease.
    My question today is this: with these changes, what is the Forest 
Service going to do?
    This crisis is decades in the making. It will take at least another 
decade of sound management to restore our forests to good health. Over 
this decade of potential progress, we will undoubtedly witness 
additional years of catastrophic wildfire. This year is no exception--
as I speak, there are 17 major wildfires burning in 9 different states. 
To date, over 1.75 million acres have burned nationwide, already 
eclipsing the numbers burned in all of 2016.
    It is because of these fires, and the ones to come, that I speak 
with such a sense of urgency. We must examine today specific steps the 
Forest Service will take to address catastrophic wildfires.
    I am also keenly interested in how Forest Service leadership plans 
on reporting back on its progress. Transparent, detailed explanation of 
the specific actions taken to manage and treat diseased and overcrowded 
acres will be necessary to demonstrate to the American people our 
efforts to reverse the years and years of neglect.
    With the right leadership, and robust implementation, I am 
confident that the Forest Service can use the tools we have provided to 
roll back the clock on mismanagement of our Nation's forests. If we 
ensure that every authority, every management dollar is efficiently and 
effectively used to treat for wildfire, we will have success.
    The ball is in the Forest Service's court--Congress has provided 
budget authority and management options. I am eager to hear today's 
testimony, and am excited to learn about the steps being taken to 
address catastrophic wildfire.

    Thank you, I yield back.

                                 ______
                                 

    Mr. McClintock. Thank you very much.
    And now to the main attraction. The Interim Chief of the 
U.S. Forest Service, Ms. Vicki Christiansen, welcome.

  STATEMENT OF VICKI CHRISTIANSEN, INTERIM CHIEF, U.S. FOREST 
               SERVICE, DEPARTMENT OF AGRICULTURE

    Ms. Christiansen. Mr. Chairman, Ranking Member, members of 
the Committee, thank you for inviting me today. We appreciate 
the support of this Committee for the work we do.
    Let me start by sharing just a bit about my background. I 
have been in this position for 3 months. I came to the Forest 
Service in 2010 as the Deputy Director of Fire and Aviation 
Management, and I went on to serve as the Deputy Chief for 
State and Private Forestry. For 30 years prior to these 
assignments, I worked in natural resources for state 
government. I grew up in the Pacific Northwest and I am a 
forester by training.
    I started as a seasonal wildland firefighter for Washington 
State. I had several positions that emphasized managing state 
trust lands and wildland fire protection with the Washington 
Department of Natural Resources. I eventually served as state 
forester of Washington and then state forester of Arizona.
    My passion is to connect people with their natural 
resources through partnerships and collaboration that are based 
on mutual trust. And I will lead this Agency in that spirit.
    Today, I would like to cover three main points: our 
progress to increase work to improve forest conditions, our 
internal reforms, and the wildfire outlook.
    Thank you to Congress for the Omnibus, the fire funding 
fix, and the new forest management provisions. Our most urgent 
priority is to increase our work to improve conditions of 
America's forests so they provide for the uses, experiences, 
and services citizens expect. With the help of members of this 
Committee and Congress, we are equipped with new tools and a 
fire funding fix to help us get more done. It is our time to 
deliver, and we are making steady progress.
    By tomorrow, all of our regions will submit their 2-year 
plans on how they are going to employ the new authorities. They 
will include the modified Good Neighbor Agreements, the use of 
new categorical exclusions for wildfire resilience, optimal 
locations for the 20-year stewardship contracts, and use of the 
categorical exclusion for treatments on transmission line 
corridors.
    We are already seeing results. We will sell 3.4 billion 
board feet of timber this year, while improving resiliency and 
health on more than 3 million acres. We have increased the 
number of acres we treated by 36 percent, and timber harvest 
rose 13 percent from last year, and we are delivering it 
earlier in the year. At this point, we have harvested more than 
30 percent more timber than we did last year. Our 2018 timber 
target is the highest it has been in two decades.
    We have also strengthened cooperation with states and other 
partners to do more work. Our increased work with states has 
resulted in 150 Good Neighbor Agreements in 34 states. One 
agreement in Utah, for example, has resulted in 36 projects 
that treat over 50,000 acres. Meanwhile, we are fundamentally 
reforming our internal processes. We are streamlining our 
planning for the last 8 months, and it has decreased the time 
to authorize projects. This has reduced cost in just this 8 
months by nearly $30 million. We have updated technology to 
expedite timber sales, and our shovel-ready work has also 
increased to build on the momentum in 2019. There is much more 
to do, but we are off to a productive start.
    We are also prepared for another active fire season in the 
West. Above average wildfire activity appears to be our new 
normal. Forecasters predict 2018 will rival last year's 
historic season when the Federal Government spent a record $2.9 
billion fighting fires.
    Firefighting is not solitary work. No one organization can 
do it alone. We rely on the cooperation and shared resources 
with states, tribes, Federal agencies, and local partners. With 
our collective resources, we maintain what we need to 
effectively respond. The Forest Service itself has 10,000 
firefighters, 900 engines, and hundreds of aircraft available. 
Our firefighting efforts suppress 98 percent of all fires at 10 
acres or less.
    We are also taking steps to better manage cost for fire 
response. We know there is no blank check. We will make 
decisions to ensure we spend dollars in the right place that 
make a difference. We are evaluating and reducing cost centers 
to ensure we are most effective and efficient with taxpayers' 
dollars.
    With these collective actions, we will ensure your 
investments make a difference to the Americans who deserve 
healthy, productive forests and a government that works for 
them.
    Thank you. I am happy to answer your questions.

    [The prepared statement of Ms. Christiansen follows:]
Prepared Statement of Victoria Christiansen, Interim Chief of the USDA 
                             Forest Service
    Chairman McClintock and members of the Subcommittee, thank you for 
inviting me to testify on the Agency's efforts to prepare for and 
respond to wildfires and improve the condition of America's forests and 
grasslands. I appreciate the Subcommittee's continued support and your 
recognition that this work goes beyond wildfire response, and is as 
much about proactively creating healthy, fire-resilient conditions on 
National Forest System lands so they provide for the uses, experiences 
and services that meet the needs of our Nation. This Congress provided 
valuable tools in the Consolidated Appropriations Act of 2018 (2018 
Omnibus) that will allow the Agency to carry out projects that help 
reduce the threat catastrophic wildfires and other forest threats pose 
to lives, homes and communities. We will take advantage of the 
opportunities presented in the 2018 Omnibus and work diligently to 
deliver desired results.
                           2018 wildfire year
    Last year was one of the most devastating wildfire years on record. 
Tragically, dozens of Americans were killed, including 14 wildland 
firefighters who perished while working to protect lives and property. 
Communities in the Great Plains, the Southeast, Southwest and the West 
were affected, with more than 10 million acres burned--an area larger 
than the state of Maryland--and more than 12,300 homes and other 
structures destroyed. It was also the most expensive year for wildfires 
on record: for the first time ever, we spent $2.9 billion dollars to 
suppress wildfires across the Nation.
    Early predictions indicate that 2018 will likely be another 
challenging wildfire year. According to the forecast released by the 
National Interagency Fire Center on June 1, 2018, significant portions 
of the western United States are predicted to have above average 
potential for significant wildfire activity between now and the end of 
September. States likely to be affected include Arizona, California, 
Colorado, Idaho, Montana, Nevada, New Mexico, Oregon, Utah, and 
Washington. To date, about 1.7 million acres have burned, mostly in the 
South, Southwest, and Rocky Mountain regions; this number is on trend 
with the number of acres burned last year at this time. Wildland 
firefighting is not a solitary effort, and we rely on Federal, tribal, 
state and local partners to provide a sustained and effective response 
across jurisdictions. This year the Forest Service and our partners 
have more than 10,000 firefighters, 900 engines, and hundreds of 
aircraft available to manage wildfires. At this time, we believe these 
to be adequate resources to address wildfire activity but will continue 
to evaluate our needs as the fire year progresses.
    Recent trends in wildfire response data suggest that increasing 
suppression activity appears to be the new normal. In adjusting to this 
new normal, the authorities provided in the 2018 Omnibus are key. I am 
especially appreciative of the solution to our fire funding dilemma. It 
is a challenge we have struggled with and worked on together for well 
over a decade. In Fiscal Year 2020, this comprehensive fire funding fix 
will ultimately stabilize our operating environment by addressing the 
impact of the rising suppression budget on forest management and 
research, and by treating catastrophic wildfires as natural disasters. 
Congress has dramatically reduced the need for transferring funds from 
our other mission programs so we can cover firefighting costs. We now 
have new tools and expanded authorities to help us do more to improve 
the conditions of our forests and grasslands. We will step up to this 
challenge and will do our part as an agency to get more work done on 
the ground.
    Again, we are already developing more efficient and effective ways 
to do our work while taking steps to contain fire costs and ensuring we 
spend dollars in the right places to make a difference. We expect to 
demonstrate this commitment as we confront the 2018 fire year. 
Moreover, will continue our internal reforms, especially in active 
forest management that will result in changing overly complex, time-
consuming, outdated processes that delay our work on the ground. 
Coupled with the expanded authorities, these reforms will translate to 
more favorable results, production and work in our Nation's forests.
                           forest management
    Congress has been very helpful in recent years, providing a number 
of authorities to help us get more work done on the ground. Thank you--
it is helping, and we are making progress. For example, the Good 
Neighbor Authority (GNA) provided in the Agricultural Act of 2014, and 
expanded by the 2018 Omnibus, has dramatically increased our 
cooperation with states. We now have 150 agreements in 34 states using 
this authority. This shared stewardship approach has generated more 
trust and allowed significantly more work to get done.
    While the total number of GNA agreements shows real progress, that 
number alone does not tell the whole story. For example, in the state 
of Utah a single 10-year agreement between the Forest Service and the 
state has yielded 36 projects that will treat over 50,811 acres of 
National Forest System lands in Fiscal Year 2019 alone.
    The new authorities provided by Congress in the 2018 Omnibus give 
us more tools to increase forest treatments. The combination of these 
new tools and the fire funding fix are already changing the way we get 
work done--it's no longer business as usual. Since the 2018 Omnibus was 
signed into law, we analyzed the new tools technically and legally, 
provided explicit guidance to the field, and have required the Regions 
to submit their plans for implementing the authorities by June 8, 2018. 
More immediately we have directed the Regions to modify their Good 
Neighbor Agreements and use the new categorical exclusion for wildfire 
resilience projects. The new categorical exclusion will also be 
available for post fire treatments this year. In addition, we are 
actively working with our Regions and industry partners to identify the 
best areas to initiate 20-year stewardship contracting, thereby 
maximizing in the development of new infrastructure to process forest 
products.
    Outside of increasing the use of new congressional authorities, we 
have been very aggressive on improving our processes administratively 
to reduce the time and cost to plan and implement work on the ground. 
It's paying off. Our focus to streamline planning over the past 8 
months has decreased the time necessary to authorize projects, reduced 
costs by nearly $30 million, and resulted in more shovel ready work. 
But we know there is more to do.
    We are also putting into place a national risk-based strategy to 
address wildland fuels. To that end, this year we have increased acres 
treated by 36 percent and timber harvest by 13 percent over last year's 
levels. Compared to last year, we have nearly 30 percent more timber 
harvested at this point in the year. Our anticipated level of timber 
harvest in Fiscal Year 2018 is the highest it's been in 20 years. In 
all, this year the Forest Service plans to sell 3.4 billion board feet 
of timber while improving the resiliency and health of more than 3 
million acres of National Forest System lands through removal of 
hazardous fuels and stand treatments.
    Our implementation of vegetation treatment is also getting more 
efficient. We have trained personnel and industry partners in every 
region to use designate by prescription and description methods. We 
have also delivered updated technology to our personnel in the field, 
designed to reduce the time it takes to administer a timber sale, 
moving us closer to industry standards.
    While we are pleased with the progress we are making, we recognize 
that the successful delivery of services and work starts with a highly 
skilled, motivated workforce. Forest Service employees remain our 
largest and most important investment. They are essential to 
confronting the arduous challenges facing America's forests and 
grasslands. They are integral to the services and experiences we 
provide to citizens and local communities. A safe and respectful work 
environment is the foundation for everything we do at the Forest 
Service. We simply cannot succeed without it. The next step toward this 
end will be during the week of June 11 when every Forest Service 
employee will participate in a daylong event called Stand Up for Each 
Other. Our local leaders will convene learning sessions designed to 
show how we as Forest Service employees can better support each other 
so that we all feel valued and respected. We expect the following 
outcomes for all Forest Service employees from Stand Up for Each Other: 
employees will understand that harassment, assault, bullying and 
retaliation are absolutely unacceptable behaviors; they will all know 
what to do if we experience or witness unacceptable behaviors; and, our 
Agency as a whole will have built a collective capacity among employees 
to Stand Up for Each Other. We will continue to work in the weeks and 
months ahead to create the work environment each and every one of us 
deserves.

    That concludes my testimony, Mr. Chairman. I would be happy to 
answer any questions you or the Subcommittee members have for me.

                                 ______
                                 

 Questions Submitted for the Record to Ms. Vicki Christiansen, Interim 
         Chief, Forest Service, U.S. Department of Agriculture
                   Questions Submitted by Rep. Bishop
    Question 1. Can you tell us how you are training Forest Service 
Agency employees to work with State Foresters to implement the new 
authorities provided by the expansion of Good Neighbor Authority as 
provided in the Omnibus?

    Answer. The national headquarters and regional offices host 
training sessions on the use of the Good Neighbor Authority for field 
offices on how to implement agreements and projects. Regions have 
specialists who work with forests on developing new or expanded Good 
Neighbor Authority agreements and they also train local staff on the 
latest changes. Specific training of the field staff on implementing 
individual projects is left up to the local forest.

    Question 2. State Foresters are responsible for producing and 
updating State Forest Action Plans covering all ownerships including 
Federal lands and focusing limited resources on the highest priorities. 
How is the Forest Service incorporating those plans and working with 
State Foresters to focus combined efforts on the highest priorities for 
our Nation's forests?

    Answer. State Forest Action Plans are an important tool for states 
to define their highest conservation priorities, resource management 
concerns, and long-term strategies. While each state forest action plan 
is unique, all plans address three national priorities: (1) Conserve 
and Manage Working Forest Landscapes for Multiple Values and Uses, (2) 
Protect Forests from Threats and (3) Enhance Public Benefits from Trees 
and Forests.
    The Forest Service provides financial assistance to state agencies 
to lead and deliver a variety of forestry programs through local 
partnerships with private landowners, local conservation and hunting 
organizations, academic partners, governmental partners, and others. 
The Forest Service prioritizes available assistance to consider the 
strategic priorities articulated within each State Forest Action Plan.
    The 2012 Planning Rule, which guides the development, revision, and 
amendment of land management plans for the National Forest System, 
requires coordination with the planning efforts of states and also for 
the review of relevant planning and land use policies of other 
government entities (e.g., states) during Forest Service land 
management planning efforts.

    Question 3. To solve a problem the magnitude of our forest health 
crisis, the Forest Service must have a long-term vision. What is your 
long-term plan for increasing the pace and scale of forest management 
and restoration to get back to a place where we are ``carrying out'' 
more trees than are being ``burned out?''

    Answer. The Forest Service is working to find solutions to this 
issue. There is no one solution, but by using a combination of all of 
the available authorized tools and the available scientific knowledge, 
we continue to make progress. We propose a more contemporary way of 
doing business: an outcome-based investment strategy. To succeed, we 
will continue reforming Agency policy and producing more results on the 
ground while also investing across boundaries and working at a larger 
scale. In brief, the vision includes:

    <bullet> Determining management needs on a state level. We will 
            prioritize stewardship decisions directly with the states, 
            setting priorities together to focus our joint efforts and 
            working across boundaries as well as finding ways to 
            combine our mutual skills and assets.

    <bullet> Doing the right work in the right places and at the right 
            scale. We will use advanced science and new mapping and 
            decision tools to locate treatments where they can do the 
            most good, thereby protecting communities, watersheds, and 
            economies where the risks are greatest. Through 
            partnerships, we can produce more outcomes at a meaningful 
            scale, such as supporting rural economies, reducing fire 
            risk, and improving forest conditions.

    <bullet> Using all available tools for active management. We will 
            use the authorities provided by Congress to collectively do 
            more work on the ground, including mechanical treatments, 
            prescribed fire, and managed wildfires, using a 
            collaborative and shared decision space to choose the most 
            appropriate tools tailored to local conditions.

    This management approach for an outcome-based investment strategy 
is intended as a basis for further dialogue. It represents a 
continuation of the direction that we have been taking, and it builds 
on the National Cohesive Wildland Fire Management Strategy to reach for 
a new level of collaboration.

    Question 4. The FY 2018 Omnibus provides greater flexibility for 
the construction, repair and reconstruction of roads as part of a Good 
Neighbor Agreement. This new authority will increase access to lands in 
need of treatment while allowing the Forest Service to leverage the 
increased capacity provided through Good Neighbor Agreements. The U.S. 
Forest Service manages forested lands in 43 states and Puerto Rico and 
has Good Neighbor Agreements in place in only 34 states.

    4A. To make full use of new authorities provided under GNA, the 
Forest Service must have Good Neighbor master agreements in place with 
every state that includes National Forest System lands. Do you believe 
expanding Good Neighbor Agreements can help increase the pace and scale 
of forest management?

    Answer. Yes, we view the use of Good Neighbor Authority is 
instrumental in our ability to improve the condition of our forests. 
These partnerships will allow us not only to expand our capacity, but 
to also plan joint projects that will benefit larger common areas.

    4B. What is your plan to increase the number of states, 
territories, and forests, with Good Neighbor Agreements?

    Answer: We continue to work on implementing Good Neighbor 
Agreements with all the states that wish to participate. Regions and 
forests have and continue to reach out to their states that have not 
developed a partnership to determine whether there is the potential to 
create an agreement. Some states have said they do not have the 
capacity to assist. We will continue to use the tool where it works 
best.

    4C. You said that the number of agreements alone isn't reflective 
of the work being done. Is the example noted in your testimony in the 
state of Utah that will treat over 50,000 acres in FY 2019 typical of 
the pace and scale of these agreements?

    Answer: There is no one agreement that is typical of all of them. 
Most agreements have many projects associated with them, so looking 
only at the number of agreements will provide a limited perspective on 
what is actually being accomplished. Looking at the number of 
agreements within a state would indicate the breadth of the interest 
within the state to partner on more than one issue. For example, a 
state could have an agreement under their forest management division as 
well as their wildlife division. Identifying the number of projects or 
the number of acres would provide an idea of the scale of work being 
accomplished.

    4D. Could more be accomplished by expanding the timelines and scope 
of Good Neighbor Agreements? Are there any statutory or administrative 
limits on the USFS' ability to expand the scope and timeline of Good 
Neighbor Agreements? How can Congress help reduce these limitations?

    Answer: More could possibly be accomplished if there was a longer 
time frame allowed for Good Neighbor projects. Administratively, there 
is a 10-year limit on Good Neighbor Authority master agreements. This 
is more of an acquisition driver where there is a need to close out 
agreements periodically to ensure financial accountability. There are 
proposals being developed that would set up a special fund into which 
the receipts generated from Good Neighbor projects would be deposited 
and used to fund new projects under the current or any new master 
agreement.
                 Questions Submitted by Rep. McClintock
    Question 1. The King Fire in 2014 burned over 97,000 acres of the 
American River Watershed in the Tahoe and El Dorado National Forests. 
In the last 4 years, the King Fire, the Butte Fire, the Rough Fire and 
the Rim Fire consumed more than 1,000 square miles of Sierra forests, 
impacting the region's ecosystem and water resources.

    1A. Local governmental agencies, including water agencies along 
with not-for-profit partners are providing significant commitments of 
time and money for collaborative projects to address wildfire threats 
on Federal and non-Federal forest lands. Is the Forest Service 
committed to match this effort with appropriate funding?

    Answer. Yes, we have worked collaboratively with local government 
agencies, and we will use the authorities we have to contribute to this 
important work.

    1B. In the FY 2018 budget, what resources have been allocated to 
implement collaborative forest restoration projects on Federal lands to 
reduce the threats from catastrophic wildfires? What is the Forest 
Service doing to expedite these projects? How many projects do you 
anticipate being funded in this budget year? Next year?

    Answer. In FY 2018 the Forest Service fully allocated the $40 
million in Collaborative Forest Landscape Restoration (CFLR) funding 
appropriated by Congress among 23 existing CFLR projects on the 
National Forest System, including 3 in California. These funds will be 
matched with other Forest Service appropriated dollars and partner 
contributions for a combined investment of at least $80 million, as 
required under the Collaborative Forest Landscape Restoration Program.
    With these resources, the projects will accomplish a variety of 
restoration goals including mitigation of wildfire risk. Since 2009, 
CFLR projects treated over 2.9 million acres to reduce the risk of 
catastrophic wildfire. These treatments translate into outcomes on the 
ground. For example, when a fire started on the Sierra National Forest 
last summer in an area that had seen three entries in the past 20 
years, a comparison of observed/expected fire behavior within the 
treatment area and what expected fire behavior would have been had the 
area not been treated yielded a strong example of pre-wildfire 
mitigation through fuels reduction and fuels rearrangement. The brush 
component had been reduced 70-80 percent compared to adjacent non-
treated areas. Dead and down fuel loading has been reduced 75 percent 
from adjacent non-treated areas. Ladder fuels are almost non-existent 
within the fire burn area. In 2017 alone, the Dinkey Collaborative 
CFLRP accomplished nearly 1,400 acres of prescribed fire within the 
CFLR landscape. With a focus on training staff alongside cooperators, 
the project has been able to leverage funding and capacity to 
accomplish larger-scale work in a relatively short amount of time.

    1C. One of the most serious challenges encountered by collaborative 
partnerships is regulatory certainty for a project's review and 
approval. The Subcommittee understands that the Forest Service 
published a proposed rule to improve procedures governing the use of 
the National Environmental Policy Act that could improve the timeliness 
of environmental analyses that are part of any collaboration. What is 
the status of this proposal?

    Answer. The Forest Service published an Advance Notice of Proposed 
Rulemaking to revise its Agency NEPA Procedures on January 3, 2018. The 
Forest Service is currently preparing a proposed rule which it intends 
to publish later this summer.

    Question 2. Ms. Christiansen, you note in your remarks progress you 
are making in improving the health and resiliency of our Forest System 
and the fact that this is also resulting in additional domestic timber 
production. Knowing that my home builders are facing historically high 
lumber prices, I wonder what more we might be able to do to help meet 
our Nation's housing demands while also improving the health of our 
Forest System?

    Answer. We are aggressively working to bring as much timber volume 
to market as possible. Knowing we need to take advantage of the high 
demand for timber will help us achieve our overall forest management 
goals.
    Much of our land treatment needs involve areas where we cannot 
recover the costs associated with timber, so the more we can integrate 
land treatment needs with places that we can recover the cost of a 
timber sale, the more we can accomplish to improve forest health and 
take advantage of current timber market conditions.
    Through better planning under our Environmental Analysis--Decision 
Making change efforts, we hope to see this integration increase over 
time. Partnerships, primarily through the Good Neighbor Authority and 
stewardship programs, allow us the opportunity to treat more acres, 
which will lead to more timber volume being sold.

    2A. Does the Forest Service coordinate with the Department of the 
Interior and Department of Energy to enhance resiliency and reliability 
by ensuring utility rights of ways on Federal lands are properly 
managed, particularly in those areas likely to be affected by 
wildfires?

    Answer: Yes, we have and will continue to coordinate with the 
Department of the Interior to enhance the resiliency and reliability of 
utility services.
    We meet monthly with Bureau of Land Management to discuss various 
topics related to land access and use, including developing and 
updating regulations, policies and training to ensure effective, 
collaborative implementation of the vegetation management provisions. 
Also, the joint Forest Service-Bureau of Land Management National Lands 
for Line Officers training has developed a training module to 
specifically address improved cooperation between the agencies and 
utilities in the development and approval of maintenance and vegetation 
management plans.

    2B. With respect to improving electric reliability coordination 
between the Department of the Interior and Department of Energy, would 
you consider developing a Memorandum of Understanding between the 
departments to better protect assets most likely to be affected by 
fires on Federal lands?

    Answer. Yes. Collaboratively developing a Memorandum of 
Understanding between the departments to better protect assets most 
likely to be affected by fires on Federal lands may be very helpful for 
prioritizing work, aligning processes, and sharing resources for this 
task.

    Question 3. Please provide the Subcommittee with a summary of the 
plans you have received from each Region on how they plan to implement 
the new authorities provided to the Forest Service in the 2018 Omnibus.

    Answer. The responses to the Chief's direction to develop regional 
strategies were submitted to the Washington Office on June 15. These 
strategies are in review and summaries are being compiled. Once this 
process has been completed and the actions provided by the regions are 
understood and complete, a report will be prepared.

    3A. Now that each plan has been received, how will they be 
implemented by the region?

    Answer. Each region will implement their own actions as they have 
described in the plans. At the headquarters level, we will be 
monitoring the progress made with each action to ensure that actions 
are productive.

    3B. Are there places where the new 2018 Omnibus authorities are 
already being implemented?

    Answer. Actions are already underway. The new Categorical Exclusion 
is being implemented, and work has begun on the identification of 
locations to implement 20-year stewardship contracts and agreements. A 
stakeholder meeting was held to listen to the concerns and ideas from 
our partners. From this meeting the Agency now can develop a program 
that will meet our needs as well as the partners involved.

    3C. How will you ensure that the best ideas and practices from each 
Region are being shared and implemented across the Regions?

    Answer. Monthly calls with the regions are held at various levels 
to ensure that issues are addressed, ideas are exchanged and metrics 
are being met. If there are barriers that can be dealt with immediately 
they are dealt with, or at least identified for further action. If an 
action needs to be raised to the next level, it is brought forward for 
resolution.

    Question 4. Budgetary uncertainty caused by fire borrowing has been 
a common reason given for shortfalls in the Forest Service's ability to 
meet its goals in everything from timber sales to trail maintenance. 
With a fire borrowing fix passed and additional funds provided by 
Congress for wildfire suppression, for the first time in a long time 
the Forest Service is in a more stable financial position.

    4A. Other than funding, what is the single greatest challenge that 
limits the ability of the Forest Service to achieve its active 
management goals? As Chief, how do you plan to lead the Agency from the 
inside to overcome that challenge?

    Answer. Accomplishing environmental review and delivering forest 
products in an efficient manner is still a challenge within the Agency. 
Our current efforts with Environmental Analysis and Decision Making 
(EADM) and our Forest Products Modernization initiatives (FPM) are 
alleviating that challenge. Both efforts are designed to evaluate the 
way we have done business in the past to better inform how we operate 
in the future. We plan to address challenges through improved use of 
technology, increased training, changes to policy, and addressing our 
overall agency culture as it pertains to change.

    4B. What can Congress do from the outside to help you?

    Answer: Congress has provided many new authorities and processes 
for the environmental analysis process to help our management. The 
Agency is focused on using and learning from the use of the new 
authorities.

    Question 5. The Plumas National Forest recently completed a CE for 
a timber sale in 90 days from start to finish. I understand the forest 
has a goal of completing its next CE in less than 90 days.

    5A. A critical aspect of increasing the pace of forest management 
is increasing the pace of the preceding environmental analysis. How do 
you plan to ensure the Regions increase the pace of their environmental 
analysis and ensure proactive utilization of CEs where they are 
available?

    Answer. The Forest Service is undertaking a number of activities to 
implement existing categorical exclusions and the new authorities in 
the 2018 Omnibus bill. The Washington Office has provided guidance to 
the regions on the scope of the wildfire resilience categorical 
exclusion, and, in turn, the regions are developing plans outlining how 
they intend to use this new authority.
    The regional responses to the Chief's direction to develop regional 
strategies were submitted to the Washington Office on June 15. These 
strategies are in review and summaries are being compiled. Once this 
process has been completed and the actions provided by the regions are 
understood and complete, a report will be prepared.

    5B. What are you doing to ensure land managers on the ground have 
the training and tools they need and feel empowered to accelerate their 
own environmental review processes?

    Answer. The Agency is implementing a national NEPA training program 
to provide land managers in the field with a common understanding of 
what is required to comply with our governing laws, as well as tools to 
minimize the time needed to conduct competent environmental analysis. 
All levels of our agency from the Washington Office to the ranger 
district are involved in this effort, and leadership at every level is 
fully engaged to ensure success.

    Question 6. You've stated that improved management of our forests 
has as much to do with where we treat as it does with how many acres we 
treat.

    6A. How to you plan to utilize metrics within the Agency to ensure 
that the Forest Service's limited resources are being directed to those 
landscapes where they will have the greatest efficacy?

    Answer. Forests manage their activities and prioritize work to 
ensure they are treating the highest priority areas first. Spatial 
reporting systems are in place to show where treatments are occurring. 
This spatial reporting provides us information for regional and 
national program managers to continue to guide the decisions on where 
targets and funding are allocated. In addition to our spatial reporting 
systems, we will use advanced science and new mapping and decision 
tools to locate treatments where they can do the most good, thereby 
protecting communities, watersheds, and economies where the risks are 
greatest. Through partnerships, we can produce more outcomes at a 
meaningful scale, such as supporting rural economies, reducing fire 
risk, and improving forest conditions.

    6B. Community resilience as well as forest resilience can be 
supported by a robust forest products industry. Do you believe that 
ensuring a sustainable supply of timber to support a local forest 
products industrial base is an important factor in the consideration of 
forest management project design and location?

    Answer. A robust local forest products industry is paramount to our 
success in managing resilient forests. We would not be able to 
accomplish much on our national forests without outlets for the 
materials created from our treatments. By removing products that have a 
value, we are able to fund other projects that otherwise would not be 
completed. Goals of the Forest Service are to find ways to expand or 
attract markets to areas and find ways to create new products from 
unused materials. It is our mission to find ways to do these things 
where long-term stability is a part of the equation.

    Question 7. Can you speak to the importance of mechanical thinning 
and other similar fuels reduction techniques as it relates to wildfire 
prevention? How do you plan to leverage revenue generated by market 
driven treatments, like timber sales, to provide additional resources 
to the Agency that can then be reinvested into additional forest 
management?

    Answer. The importance of mechanical thinning and fuel reduction 
treatments include reducing long-term fire risk to communities, fire 
intensity, fire suppression costs, and risk of wildfire damage to 
natural resources and infrastructure.
    Revenue generated from timber sales will be used according to the 
Knutson-Vandenberg Act of 1930, which authorizes the Secretary to 
require timber sale purchasers to make deposits to cover the cost of 
reforestation and related work within timber sale boundaries. We have 
recently expanded the use of the Knutson-Vandenberg receipts outside 
the sale area boundary. This will have a big impact on how many acres 
we can treat. In addition, appropriated funds and partnership funds 
will be invested into additional forest management.

    Question 8. Your testimony notes that your treatments are becoming 
more efficient through the use of designation by prescription and 
updated technologies in the field.

    8A. Can you explain to the Subcommittee the process of designation 
by prescription and the other technologies that are being made 
available in the field?

    Answer. Designation by Prescription is a process where the 
prescription for treatment of a stand of timber is given to the sale 
contractor to implement versus the traditional method of having a 
marking crew go out and identify which trees are to be cut. This cuts 
out the need for having a marking crew work through the stand and saves 
money from things like not having to use paint to mark the trees. As 
the logger cuts the stands, the sale administrators evaluate the 
harvest selections being made and work with the cutters to ensure the 
prescription is being understood correctly. Technologies can help with 
this. For example, virtual boundaries can be loaded into a computer in 
the cab of the harvester so the logger knows where the sale area stops 
or areas that need special attention.

    8B. How do these new approaches and technologies increase 
efficiency?

    Answer. These new approaches will allow the Forest Service to 
prepare more areas for treatment in faster times since the presale 
crews do not have to spend as much time on a timber sale. New 
technologies will also allow us to more efficiently account for the 
products that are removed.

    8C. Are they being fully utilized across the forests and regions? 
If not, what is your plan to expand their use?

    Answer. Some new methods and technologies are available and used 
nationwide. The Forest Service is ensuring that all forests have access 
to the technologies available. We are striving to have all timber sale 
activities be digital this year. Regions or forests that need 
assistance or equipment have been given the opportunity to reach out to 
the national headquarters for assistance. Some technologies are new to 
the Agency or new to the forest products industry. These projects are 
undergoing testing at certain locations to provide the opportunity for 
us to understand how best to use it on the National Forest System. As 
these lessons are learned they are being shared with other forests for 
their implementation.

    Question 9. Can you elaborate on how new drone technologies are 
being used to support the Forest Service's land management and wildland 
firefighting mission? How does the Forest Service plan to expand drone 
operations in the future?

    Answer. In 2017, the Forest Service conducted over 60 Unmanned 
Aircraft System (UAS) missions. Approximately 40 percent were non-fire 
related and included aerial survey of an archeology site and post fire 
flood damage assessment in a Burned Area Emergency Rehabilitation area.
    UAS missions were conducted in six of the nine regions. Fire 
missions were conducted to collect tactical data and information to 
support tactical decision making. All missions were conducted using 
Bureau of Land Management UAS and/or personnel.
    The Forest Service has been partnering with state and Federal 
agencies, such as NASA and Department of Homeland Security, to 
integrate UAS operations and leverage efficiencies. Results of these 
collective efforts will be used to finalize the National UAS Operations 
Plan which addresses all aspects of UAS including acquisition, 
training, operations, reporting, data collection, and data management. 
The Forest Service will continue to conduct additional missions to 
evaluate UAS for effectiveness in post-fire rehabilitation, restoration 
efforts, surveying archeology sites, and additional structure 
inspections.
    In addition, a Request for Information was published on Federal 
Business Opportunities (www.FedBizOpps.) for a draft Forest Service 
Call When Needed UAS contract. This allowed private industry to weigh 
in on contract language that ultimately helps produce a contract that 
is fair, competitive, and relevant to the UAS community. Once 
specifications are finalized, then the UAS Call When Needed 
solicitation will be posted to Fedbizops for vendors to bid on.

    Question 10. Are there interagency efficiencies and changes to 
procedures, like streamlining consultations with the Fish and Wildlife 
Service, that you think could be helpful to increasing pace and scale? 
If so, what are your plans to pursue those opportunities?

    Answer. For nearly four decades, the Department of Commerce's 
National Marine Fisheries Service (NMFS), the Department of the 
Interior's Fish and Wildlife Service (FWS), and the Forest Service have 
employed multiple approaches to achieve more efficient and effective 
consultations under section 7 of the Endangered Species Act of 1973 
(ESA, 16 U.S.C. 1531). The approaches have included early interagency 
cooperation, national and regional streamlining consultation 
agreements, the use of programmatic and batched consultations, and 
interagency agreements that provide Forest Service biologists to the 
NMFS and FWS to help prepare biological opinions and letters of 
concurrence.
    The Forest Service recently completed an evaluation of the 
potential opportunities to improve the efficiency and effectiveness of 
how we conduct ESA consultations, including possible, collaborative 
ventures with NMFS and FWS.

    The Report recommended three opportunities that the Forest Service 
explore, in cooperation with the Services:

  a.  Increase interagency and partner cooperation on recovery of 
            listed species. Coordinating at the national, regional, and 
            local levels to determine relative priorities and needs to 
            improve the conservation and recovery of listed species, 
            including increased leveraging of each agencies' resources 
            in concert with the state fish and wildlife management 
            agencies and tribal governments. Reviewing and updating the 
            aforementioned 2000 Memorandum of Agreement with the 
            parties to better address the contemporary challenges and 
            issues associated with the conservation and management of 
            threatened and endangered species on the Federal public 
            lands administered by the Bureau of Land Management and the 
            Forest Service.

  b.  Assist reviewing agencies with completion of priority 
            consultation backlog. Working with the FWS and NMFS to 
            evaluate where possible consultation backlogs may exist, 
            based upon Forest Service management priorities and the 
            listed species and/or critical habitats that may be most 
            prevalent, affected by, or relevant to their land and 
            resource management plans. Where feasible, collaborating 
            with FWS and NMFS to expand upon existing and/or develop 
            new programmatic section 7(a)(2) consultation agreements 
            for regularly occurring, ongoing actions or section 7(a)(1) 
            conservation programs at the landscape level consistent 
            with the conservation and recovery needs of the species.

  c.  Increase long-term Forest Service authorities. Working with FWS, 
            NMFS and their respective Departments to seek their counsel 
            on increasing the Forest Service's regulatory authorities, 
            most notably, for mutually agreed upon projects or 
            programs, allowing the Agency to make ``may affect, not 
            likely to adversely affect'' determinations without the 
            written concurrence from the FWS or NMFS, especially for 
            projects designed to improve forest conditions and conserve 
            threatened and endangered species and/or their critical 
            habitats.

    The Forest Service has shared the report's recommendations with 
both the FWS and NMFS, receiving complementary and favorable feedback 
from both agencies. The FWS has offered to work closely with the Forest 
Service on exploring how we might collaborate toward realizing some of 
the Task Force's recommendations.
    Presently, the Forest Service is developing operational plans and 
staffing proposals to implement the priority recommendations from the 
report, and, entering into preliminary conversations with the Bureau of 
Land Management regarding the 2000 Memorandum of Agreement. The Forest 
Service believes that these efforts offer a great deal of promise to 
promote procedural efficiencies with section 7 consultation that will 
contribute to both increasing the pace and scale of the important 
forest health-related work on NFS lands, while improving the 
effectiveness of conservation outcomes for listed species.
                   Questions Submitted by Rep. Young
    Question 1. Under the Alaska National Interest Land Conservation 
Act (ANILCA), the Service is required to offer 450 million board feet 
of timber to the timber industry each year. The former Alaska state 
forester freely acknowledged that there was no way for the U.S. Forest 
Service to have their legally required timber sales while also 
following the current forest management plan, which includes a 
transition to young-growth only timber harvest. How will the Service 
under your guidance work to fulfill their required timber sale quota?

    Answer. The Forest Service is committed to ensuring a continuous 
and reliable supply of timber to maintain the viability of Southeast 
Alaska's timber industry during the transition and ensuing years. The 
Forest Service and timber industry face significant challenges, some of 
which are unique to Alaska, including higher costs of labor; sparsely 
developed infrastructure, including roads and timber processing 
facilities; transportation costs from Alaska to the contiguous 48 
states; and variable and unpredictable market conditions. Current 
initiatives to increase timber sales include:

    <bullet> Landscape Level Assessments (LLA): These are large-scale 
            planning efforts emphasizing collaboration through 
            extensive public involvement to determine types and 
            locations of activities over the course of 10-15 years. It 
            is a high priority for the Tongass National Forest to 
            ensure a continued supply of timber. LLAs involve a broad 
            array of community and timber industry representatives. 
            Once the following two collaborative, large-scale EISs are 
            approved, the Region will for the first time in a long 
            while have sufficient inventory of approved NEPA projects 
            to meet timber sale commitments for several years--giving 
            industry and communities space to continue inventory, 
            investments, and dialogue associated with transition:

          + Prince of Wales LLA: 1.8 million acres; first timber sales 
        in FY 2019

          + Central Tongass LLA: 1.4 million acres; first timber sales 
        in FY 2020

    <bullet> Good Neighbor Authority: A Master Good Neighbor Agreement 
            is in place with the state of Alaska. The $2.6 million, 30 
            MMBF Kosciusko sale was recently implemented. The Vallenar 
            young-growth project, encompassing an estimated 4.6 MMBF is 
            currently in development.

    <bullet> All Landowners Group: Southeast landowners (State of 
            Alaska, Sealaska Corporation, Alaska Mental Health Trust, 
            et al.) meet regularly to coordinate operations, find 
            efficiencies, and share infrastructure to support timber 
            and other resource management.

    <bullet> Tongass-wide young-growth study: This ongoing, long-term 
            project is enhancing knowledge of silvicultural practices 
            including young-growth management.

    <bullet> Southeast Alaska Wood Quality Study: This study will 
            determine types of commercial products that can be produced 
            from young growth.

    <bullet> Alaska Mental Health Trust (AMHT) Land Exchange: The 
            Alaska Mental Health land exchange is still moving forward. 
            The Appraisal has taken longer than anticipated. We hope to 
            complete the first phase before the end of June. The AMHT 
            can make approximately 100 MMBF of timber available to 
            local mills as early as 2018. The exchange is a key 
            component for retaining existing timber infrastructure in 
            SE Alaska. Phase II of the exchange will be complete by May 
            5, 2019 and provide additional volume to local operators.

    Question 2. According to the Alaska Forest Association, it takes 
approximately 90 years for a timber stand in the Tongass to reach 
harvestable size. Would you be willing to scrap the current plan to 
transition to young growth only and work to create a new plan that will 
not kill off what is left of the timber industry in Southeast Alaska?

    Answer. The Forest Service was directed to facilitate the 
transition of the Tongass forest management program to predominantly 
young-growth management while maintaining a viable timber industry in 
Southeast Alaska and facilitating renewable energy management. The 
Record of Decision for the amendment to the Tongass Forest Plan to 
accelerate the transition to young-growth became effective on January 
8, 2017. The Plan amendment was developed with comprehensive 
stakeholder engagement and is based on the unanimous recommendations of 
the Tongass Advisory Committee.
    We are committed to investing in timber management and associated 
infrastructure needed to sustain the current industry and prepare for 
expansion of the young-growth program. The Alaska Region is 
implementing a multi-faceted strategy to facilitate the transition 
while ensuring the continued viability of the timber industry in 
Southeast Alaska. We will continue to prepare old-growth ``bridge'' 
timber sales until the majority of the program can be offered in young-
growth sales.
    In 2018 we plan to complete approximately 11,500 acres of young 
growth and 20,000 acres of old growth, which will complete the 
inventory. We will review the results of the timber inventory to 
determine whether amendments to the Tongass Forest Plan are necessary.

    Question 3. The Roadless Rule violates authorities granted to 
Alaska through ANILCA, and when coupled with the Tongass Transition 
Plan, it decimates the already fragile timber industry. If we can get 
Alaska an exemption, will you ensure the Forest Service employees do 
not stand in the way of responsible resource development in the Tongass 
and Chugach Forests?

    Answer. Secretary of Agriculture Sonny Perdue and Alaska Governor 
Bill Walker reached agreement to pursue a state-specific roadless rule 
to address access concerns on the Tongass National Forest in Alaska. 
The USDA Forest Service has convened the resources and personnel to 
move forward in support of this agreement. The Forest Service will work 
closely with the state of Alaska to develop a collaborative process 
that allows all stakeholders an opportunity to inform the development 
of this local rule. This agreement follows pervious state-specific 
rulemaking in Colorado and Idaho.

    Question 4. I'm happy that a solution has been found for the Hammer 
cabin and other family owned cabins within the Tongass, ensuring that 
they can be transferred to an immediate family member. As far as I'm 
aware there is nothing in writing to express this new policy. Can you 
give a timeline for when a written policy will be available?

    Answer. We anticipate having the regional supplement amended by the 
end of the calendar year.
                   Questions Submitted by Rep. Tipton
    Question 1. I am hearing from my home builders about the 
historically high lumber markets, how it's affecting housing 
affordability, and the need for more domestically produced timber both 
now and in the years to come. It seems to me that this represents a 
potential win-win if we can take steps to better manage our Forest 
System and produce additional timber domestically to help meet our 
Nation's housing demand. What, in your opinion, are the biggest 
impediments to increasing domestic production of timber off Federal 
lands? What can we be doing to help you navigate those challenges?

    Answer. The biggest impediment is that we are struggling to meet 
the increase in demand for timber volume to be sold with our limited 
capacity. To address this challenge, we are increasing the use of 
partners through the Good Neighbor and stewardship authorities, and we 
are implementing efficiencies in our forest products delivery system 
through modernizing procedures and technologies.
                  Questions Submitted by Rep. LaMalfa
    Question 1. I would like to ask about the vegetation management 
provision included in the most recent Omnibus package. Congress passed 
this bill with bipartisan support because I believe we can all agree on 
the dangers associated with failure to safely maintain transmission 
rights of way. Can you tell me what the Forest Service has done, and 
plans to do to implement the law's directives?

    1A. What level of engagement are you having with the utility 
companies who own the lines? Are you actively coordinating with them?

    Answer. We communicated to our field staff the maintenance and 
vegetation management requirements within the Consolidated 
Appropriations Act, 2018 and outlined steps ahead for implementing 
those provisions. This included: creating a standard template for 
powerline maintenance and vegetation management plans that conforms 
with our Memorandum of Understanding with the Edison Electric 
Institute; simplifying environmental reviews for plan approvals through 
categorical exclusions; developing energy-focused training that 
addresses maintenance and vegetation management; and publishing 
regulations to formally implement the provisions.
    The Forest Service meets twice yearly with the Western Utilities 
Group. At the most recent meeting in May, we outlined agency 
requirements under the Appropriations Act and asked for utilities 
participation in creating training and guidance to educate and inform 
our staffs on cooperative development of maintenance and vegetation 
management plans. We had a similar meeting with members of the National 
Rural Electric Cooperatives Association in April. We will be re-
engaging with representatives for both groups, as well as the Edison 
Electric Institute in the coming weeks to further discuss their direct 
assistance to the Agency.

    1B. What about coordination with BLM? Can you expand on how your 
agency is working with them to ensure consistent implementation?

    Answer. We meet monthly with Bureau of Land Management to discuss 
various topics related to land access and use, including developing and 
updating regulations, policies and training to ensure effective, 
collaborative implementation of the vegetation management provisions. 
Also, the joint Forest Service-Bureau of Land Management National Lands 
for Line Officers training has developed a training module to 
specifically address improved cooperation between the agencies and 
utilities in the development and approval of maintenance and vegetation 
management plans.
                 Questions Submitted by Rep. Westerman
    Question 1. The Forest Service has deployed its agency-wide Stand 
Up for Each Other training. This is an important part of confronting a 
culture of sexual misconduct; however, training is not enough to change 
the culture. What sorts of accountability measures is the Forest 
Service implementing? What is the Forest Service doing to identify and 
discipline perpetrators of sexual misconduct and assault?

    Answer. The Forest Service investigates all reported incidents of 
sexual harassment and transmits all reported incidents of sexual 
assault to independent law enforcement. In August 2016, the Forest 
Service implemented an enhanced nation-wide anti-harassment policy and 
program. The policy provides an additional avenue to report harassment 
that ensures that every case is looked into by a third party. The 
policy requires managers to report known allegations within specific 
time frames and that every allegation is addressed and appropriate 
action taken. All allegations of sexual harassment or misconduct are 
handled by a credentialed misconduct investigator.
    To determine disciplinary approaches, the Forest Service follows 
applicable law, rules, regulations, and policy including USDA's Guide 
for Disciplinary Penalties dated June 29, 1994. The guide discusses the 
types of misconduct and associated penalties for first and subsequent 
offenses. The guide also provides a framework for evaluating each case 
based on pertinent aggravating or mitigating factors to determine the 
appropriate penalty, including termination of employment, for each type 
of misconduct.
    Earlier this year, the Forest Service drafted a new code and 
commitment for all Forest Service employees establishing behavioral 
standards anchored in agency core values (i.e., service, 
interdependence, diversity, safety and conservation). The code 
establishes mutual expectations of accountability to each other.
    The Forest Service is also implementing a new performance 
management metric on work environment for supervisors. Finally, the 
Forest Service is awaiting final guidance from the Office of Personnel 
Management on Executive Order 13839, which will streamline removal 
procedures for poor and unacceptable employees.

    Question 2. What is the Forest Service doing to ensure that people 
who make claims of sexual assault, misconduct, or gender discrimination 
are taken seriously? How is the Forest Service ensuring that their 
claims are being processed and addressed in a timely fashion?

    Answer. The Forest Service investigates all reported incidents of 
sexual harassment and reports all reported incidents of sexual assault 
to independent law enforcement. Employees who raise gender 
discrimination claims or any claim covered under Title VII of the Civil 
Rights Act of 1964 are immediately referred to the Equal Employment 
Opportunity complaint process, which is administered by the USDA Office 
of the Assistant Secretary for Civil Rights.
    In November of 2017, the Forest Service launched the Harassment 
Reporting Center, a new avenue for employees that provides a single, 
dedicated resource for reporting all forms of harassment. Employees can 
reach a Harassment Reporting Center representative 7 days a week. The 
center is operated by skilled and trained contracted individuals. The 
Forest Service is expanding use of contract and other Federal 
investigators for sexual misconduct investigations. The Forest Service 
is currently utilizing independent contract investigators for all 
allegations of sexual harassment within the Pacific Southwest Region 
(Region 5) and will be working to increase the use of contract 
investigators nationally.
    The Harassment Reporting Center is a new service for employees that 
provides a single, dedicated resource for reporting all forms of 
harassment. Employees can reach a Harassment Reporting Center 
Representative 7 days a week by calling the center, toll free. The 
center is operated by skilled and extensively trained contracted 
individuals. All calls are processed within 1 day for assault, or 2 
days for other types of bullying or harassment.

    Question 3. How many acres of Forest Service Land are at high or 
very high risk of wildfire currently?

    Answer. The most current Wildfire Hazard Potential map, completed 
in 2014, indicates there are 51 million acres of National Forest 
Systems lands that have a relative high or very high potential for a 
large wildfire that would be difficult for suppression resources to 
contain. The map is being updated this year with more recent data and 
techniques. https://www.firelab.org/project/wildfire-hazard-potential.

    Question 4. In 2017, how many acres did the forest service treat 
for wildfire? With the new authorities provided by Congress, how many 
acres is the forest service planning on treating this year, in 2019, 
and beyond? Is this pace of treatment enough to keep pace with the 
current rate at which acreage is being deemed high or very high risk of 
wildfire?

    Answer. In FY 2017, the Forest Service reported 2,757,000 acres of 
hazardous fuels treatment. The FY 2018 target for the same measure is 
3,000,000 acres. We believe we are on track to meet this target. The 
proposed target for FY 2019 is 3,355,000 acres.
    The dynamic nature of change on the landscape over time makes the 
second part of the question more difficult to answer. Some initial 
analysis has indicated that 4 to 8 million acres of the high risk 
landscape needs to be treated each year to significantly mitigate 
wildfire risk. This considers the need for multiple treatments to 
mitigate risk in some locations and the durability of the treatments 
when completed. We are currently working on an analysis that also 
considers a more refined assessment of conditions, a consideration of 
management operability, strategic planning across scales, and the needs 
and capabilities of our neighbors and partners. We expect to gain a 
refined understanding of the scope of the problem.

    Question 5. What is the forest service leadership doing to ensure 
that our Nation's foresters use every new and existing authority to 
aggressively treat our forests? What additional tools would let the 
Forest Service treat more acreage more aggressively?

    Answer. Forest Service leadership has been actively working with 
the regions to introduce the new authorities to field staff. The 
regions have developed action plans that describe what steps will be 
immediately taken to implement the authorities and how they will 
continue to expand their use into the future. We look forward to 
continuing work with Congress on changes to current tools that would 
provide us additional options to meet our challenges.

    Question 6. In the House version of the Farm Bill, H.R. 2, I 
submitted and passed an amendment calling for the Forest Service to 
report yearly on the specific steps taken to aggressively treat 
wildfire. While this measure has not yet passed, it is my belief that 
seeing a matrix of actions taken, acres treated, and dollars spent will 
be critical to explaining to the American people about our progress in 
the battle to reverse this neglect. Will the Forest Service commit to 
complete transparency in this process, and will you commit to reporting 
a yearly matrix of active management numbers to Congress?

    Answer. Yes, the Forest Service is committed to being transparent 
in all of the actions to aggressively reduce the risk of catastrophic 
wildfire and improve our forest conditions. We look forward to working 
with you on this reporting matrix if this bill is passed.

    Question 7. The Forest Service's budget justification proposes 
utilizing $390 million dollars for hazardous fuels reduction. In 2017, 
the Forest Service treated just over 2.75 million acres of at-risk 
land. This roughly translates to a treatment cost of $142 dollars per 
acre treated. A 3,000-acre parcel--the maximum allowed by the new fire 
suppression categorical exclusion authorized in the Omnibus--would cost 
nearly half a million dollars to treat. Why is that so expensive?

    Answer. The calculation (above) of average treatment costs does not 
consider the impact of some costs such as fixed costs and overhead 
expenses, nor does it consider all contributions such as partnerships 
and other budget lines that contribute to integrated accomplishments. 
The marginal cost of hazardous fuels treatments has a very large range 
from as low as $25 per acre for a stand-alone prescribed burn in some 
parts of the Southeast to over $3,500 per acre for mechanical treatment 
in a complex Wildland Urban Interface area like Lake Tahoe. So, the 
marginal cost of your hypothetical 3,000 acre treatment could be as low 
as $75,000 or as high as $11 million.
    Treatment costs are influenced by treatment method, planning costs, 
complexity, region, season, risk, availability of resources or 
contractors, terms and duration of the contract, and many other 
factors.

    Question 8. With the new, 20-year stewardship contracting ceiling, 
what is the Forest Service doing to attract new mill infrastructure, 
and increase private collaboration on our Nation's forests?

    Answer. The Forest Service is working to identify areas where 
available resources, infrastructure availability and community interest 
overlap where we can launch 20-year stewardship contracts. At the same 
time we will be developing the contracting requirements necessary to 
protect the resources, and the government's interests, as part of our 
commitment to see the project be a success. Once we have projects 
identified, we will begin the implementation at a pace that will allow 
the programs to succeed.

    Question 9. What is the long-term outlook for domestic timber 
production on our national forests, and what is the Forest Service 
doing to increase this number, especially in the face of record-high 
lumber prices?

    Answer. We have set national targets for the next 5 years and are 
working to develop regional strategies to support those 
accomplishments. Our goal is to increase our volume sold from 3.4 
billion board feet (bbf) to 4.0 bbf by the year 2020. Along with these 
management targets, our researchers are working to identify the areas 
across the country that show the potential for the highest impact to 
meet our strategic goals of harvesting timber while reducing hazardous 
fuel loads.
                  Questions Submitted by Rep. Bergman
    Question 1. The 2018 Omnibus made a big change in how wildfire 
funding is apportioned. In the past, we heard stories of how Federal 
land management agencies had to ``rob Peter to pay Paul'' in order to 
fund wildfire funding and how that doing so created uncertainty for 
non-fire programs, including forest and wildland resiliency. With the 
new funding strategy in effect in 2020, how is the Forest Service 
preparing and how will it capitalize on new program funding certainty? 
Can you please tell us how the Forest Service will use these new tools 
and resources to increase much needed active forest management and fuel 
reduction work?

    Answer. The new funding strategy is part of a multi-faceted 
approach. Parts of the new approach include:

    <bullet> Forest Products Modernization to deliver forest products 
            more efficiently,

    <bullet> Improvements to Environmental Analysis and Decision Making 
            to comply with environmental legislation and regulations 
            more efficiently and effectively capture economies of 
            scale,

    <bullet> Improved analysis of wildfire risk and prioritization of 
            active vegetation management to optimize investments and 
            strategic placement of treatments,

    <bullet> Better coordination with neighbors and partners to 
            leverage cross-boundary investments and actions to create 
            more change on the landscape over time, and

    <bullet> More stability in funding for the resource management 
            programs.

    Question 2. Chief Christiansen, as you stated in your testimony, 
the ``Fire Funding Fix'' doesn't kick in until FY 2020. Do you expect 
to borrow funds for this year and if so how much would you estimate?

    Answer. Early indicators predict another active fire year and total 
Forest Service costs for the FY 2018 fire season are predicted to fall 
between $1.091 billion and $1.959 billion. Between the FY 2018 
appropriation and prior year funding recovered from states, almost 
$1.897 billion is available for fire suppression. Should the cost of 
the fire year approach the upper end of predicted costs, fire transfer 
would be necessary for any amount over the available funds.

    Question 3. How is the Forest Service planning for this contingency 
and what are you doing to ensure that impacts on critical forest 
management activities are minimized?

    Answer. The Forest Service has already initiated internal 
discussions about the Agency's fire transfer strategy should 
suppression costs for the fire year exceed available funding, which is 
$1.897 billion. The strategy is not yet complete; however, the stated 
goal is to minimize disruption to land management activities. In the 
past, this has largely been accomplished through the use of both 
Permanent and Trust accounts.
                  Questions Submitted by Rep. McEachin
    Question 1. What percentage of planned timber projects are affected 
by litigation? Of those, in what percentage does the court ultimately 
stop the project from moving forward?

    Answer. From FY 2012 to date, the Forest Service has approved 5,105 
forest products projects, of which 301, or about 17 percent, have been 
litigated.
    It is difficult to know how many of the projects were unable to 
``ultimately'' move forward for several reasons. For example, a court 
may grant a preliminary injunction halting the project while the case 
proceeds, after which the case may be settled, the project decision may 
be withdrawn by the Forest Service, or the injunction may be lifted. 
Additionally, many of our cases are brought under the National 
Environmental Policy Act, the remedy for which is a new NEPA document. 
This means that a project associated with a lost NEPA case may still be 
able to move forward after a new NEPA document is completed.

    Question 2. Do timber companies, small businesses or and other non-
environmental groups ever sue the forest service? If we got rid of 
litigation wouldn't that prevent all people from ensuring that projects 
were lawful?

    Answer. The Forest Service is often sued by non-environmental 
organizations. The breakdown of plaintiffs since 2012 is, roughly, as 
follows:

    <bullet> Environmental/Conservation: 196

    <bullet> Government/Tribe/State/Local: 22

    <bullet> Private Parties/Individuals: 33

    <bullet> Business/Trade Organizations: 36

    In order to have standing to sue, all plaintiffs, including 
governmental and business organizations, must have suffered a distinct 
injury as a result of the defendant's conduct. As such, the rights 
asserted by the governmental and business organizations are similar to 
those of the environmental non-profits' litigation. While environmental 
non-profits generally seek to stop Forest Service actions and projects, 
governmental and business organizations seek to halt projects as well 
as affirmatively recognize rights.
    State, local, and tribal governments as well as business 
organizations sue to secure their ability to conduct activities on or 
adjacent to National Forest System lands. They may also voluntarily 
join lawsuits as ``intervenors''--either in support of, or adverse to, 
the Forest Service. For example:

    <bullet> Five tribes sued the Forest Service in response to the 
            planning associated with Presidential Proclamation 
            Modifying the Bears Ears National Monument, signed in 2017. 
            In their argument that the Proclamation and its 
            implementation was unlawful, the tribes brought 
            ``separation of powers'' claims under the U.S. Constitution 
            and ``failure to act'' claims under the Administrative 
            Procedure Act. Hopi v. Trump et al., (17-2590, D. D.C.).

    <bullet> Utah State Governor Herbert sued on behalf of the state, 
            seeking that the Utah portions of the Great Basin Record of 
            Decision (amending land use plans to protect the sage-
            grouse) be remanded. The state claimed that the decision 
            disregarded ``multiple use and sustained yield--and impose 
            contradictory, and often unnecessary, restrictions on all 
            activities in or near speculative habitat.'' Herbert et al. 
            v. Jewell, (16-0101, D. Utah).

    <bullet> In 2012, the National Ski Area Association sued the Forest 
            Service over recognition of water rights on NFS lands that 
            ski resorts were operating through special use permits. 
            National Ski Areas Association, Inc. v. United States 
            Forest Service, et al., (No. 12-48, D. Colo.).

    Question 3. What is the Forest Service doing to analyze how it's 
fire suppression methods and alternative methods will affect long-term 
health of the forest and the well-being of nearby communities?

    Answer. In conjunction with partners, communities and cooperating 
agencies, the guidance for the implementation of Federal Wildland Fire 
Policy clearly states that Wildland fire analysis will carefully 
consider the long-term benefits in relation to risks both in the short 
and long term. Together we understand that fire is a critical natural 
process, which is integrated into land and resource management plans 
and activities on a landscape scale, and across agency boundaries. 
Response to wildland fire is based on an assessment of ecological, 
social and legal consequences. These assessments are informed by the 
circumstances under which a fire occurs, the likely consequences on 
firefighter and public safety and welfare, natural and cultural 
resources that could be protected, and property values to be protected.
    The USDA Forest Service analyzes the use of fire suppression 
methods in pre-identifying appropriate response to unplanned wildland 
fire ignitions as part of the Forest Planning process for each national 
forest. This process identifies where it will be necessary to suppress 
unplanned ignitions to protect values which could be at risk. The 
process also identifies areas where unplanned ignitions could be used 
to improve the long-term health of the forest. The result is guidance 
for forest managers to utilize unplanned ignitions to move toward the 
creation of fire resilient landscapes, which are key to long-term 
health of the forest. Healthy forests are those where fire can be 
managed effectively given an area's history of vegetative treatments 
and prior fire activity. Healthy forests provide conditions where 
communities can be better protected.
    Firefighter and public safety is our first priority. The 
operational roles of the USDA Forest Service as partners in the 
wildland urban interface are wildland firefighting, hazardous fuels 
reduction, cooperative prevention and education, and technical 
assistance.

    Question 4. It is my understanding that the Forest Service has 
created a new ``Harassment Reporting Center,'' which includes a hotline 
to receive complaints of harassment. How does the center work; how many 
complaints has the center received; what is the disposition of the 
cases; and how many of the cases involve any allegation of retaliation? 
Has there been an uptick in reports to the Center since recent media 
coverage of harassment issues at the Forest Service on PBS?

    Answer. The Harassment Reporting Center is operated by skilled, 
highly-trained contractors called Reporting Center Representatives. The 
Harassment Reporting Center's primary role is to intake harassment 
allegations, but they are able to answer some general questions about 
our policy and provide contact information. The Harassment Reporting 
Center maintains confidentiality and cannot release any information 
about a case, or the status of a case.
    The Harassment Assessment and Review Team (HART) is a specialized 
team of inquiry officials authorized to conduct inquiries on most 
harassment allegations. An inquiry is either conducted by a supervisor/
manager or by a HART inquiry official. An investigation is conducted by 
a credentialed misconduct investigator and involves statements taken 
under oath. The intent of both is to gather all the facts of the 
incident to determine if harassment or misconduct can be proven.
    The anti-harassment procedures allow management to address employee 
allegations of harassment and take immediate and appropriate corrective 
action, including the use of disciplinary actions, to eliminate 
harassing conduct regardless of whether the conduct violated the law. 
The goal of anti-harassment policy and procedures is to address 
harassing conduct at the earliest possible stage.
    Between September 1, 2016 and June 30, 2018, there were 1,594 cases 
of harassment reported. A total of 946 cases have been closed and of 
those closed cases, 202 (21.4 percent) substantiated misconduct. A 
total of 213 disciplinary actions have been issued for the cases where 
misconduct was substantiated (there were a few cases where misconduct, 
not related to any type of harassment, was found and more than one 
corrective action sometimes results).
    Caseload has been going up due to news stories, Agency outreach and 
growing awareness of the Harassment Reporting Center, as well as the 
agency-wide Stand Up for Each Other training that has been taken by 
most employees during the last month.

    Question 5. The Reporting Center is not identical to or part of the 
EEO process. The EEO process is required by law to identify instances 
in which discrimination or retaliation have occurred and determine how 
victims can be made whole. How does the Harassment Reporting Center and 
the process of investigating complaints established by the Forest 
Service protect victims' rights and make victims whole if any form of 
discrimination or retaliation has been found to have occurred? In how 
many instances has the Forest Service taken corrective action to make 
victims whole as a result of the findings arising from the Harassment 
Reporting Center or the investigation of complaints made to the 
Reporting Center, particularly findings relating to retaliation?

    Answer. Our Harassment Reporting Center allows Forest Service 
management to address employee allegations of harassment and take 
immediate and appropriate corrective actions through human resources. 
These may include disciplinary actions, and eliminating harassing 
conduct at the earliest possible stage regardless of whether the 
conduct violated the law.
    Employees who raise any claim covered under Title VII of the Civil 
Rights Act of 1964 are immediately referred to the Equal Employment 
Opportunity complaint process, which is administered by the USDA Office 
of the Assistant Secretary for Civil Rights. In the Federal EEO 
process, the types of relief will depend upon the discriminatory action 
and the effect it had on the complainant. The employer also will be 
required to stop any discriminatory practices and take steps to prevent 
discrimination in the future. A victim of discrimination also may be 
able to recover monetary damages, attorney's fees, expert witness fees, 
and court costs.
    If an employee feels they are being retaliated against for 
participating/cooperating in an investigation, they should contact a 
management official, Employee Relations or Civil Rights immediately. 
They may file a new report with the Harassment Reporting Center, or 
notify a management official, the servicing Employee Relations 
supervisor or field Civil Rights director, or file an EEO complaint 
with the USDA Office of the Assistant Secretary for Civil Rights. All 
reports of retaliation will be investigated, and proven acts of 
retaliation will result in disciplinary action.

    Question 6. Do the Forest Service's Human Resources and Civil 
Rights offices each play a role in the investigation and resolution of 
complaints that are received by the Harassment Reporting Center? Can 
you please describe these roles?

    Answer. USFS Civil Rights is responsible for ensuring that the 
employee knows their Equal Employment Opportunity rights, for 
contributing to policy development and training initiatives, and for 
supporting management's role of caring for employee's welfare and 
safety during the process. USFS Civil Rights is not involved in 
processing, investigating or evaluating cases that arise during the 
anti-harassment process for misconduct. That is an exclusive function 
of Human Resources Management.
    Human Resources Management is responsible for overseeing the 
processing, investigating or evaluating of anti-harassment cases. The 
harassment inquiry process investigates all claims of harassment and 
misconduct that do not rise to the level of being considered criminal 
acts (e.g., physical assault) or illegal discrimination (e.g., civil 
rights claims). Claims of criminal activity are investigated by law 
enforcement officials and claims of illegal discrimination are handled 
by the EEO process and both of those are separate and distinct from the 
Harassment Reporting Center investigation process.
    The Harassment Reporting Center process is designed to ensure the 
care and safety of employees. This is everyone's responsibility, 
including Human Resources Management and Civil Rights specialists.

                                 ______
                                 

    Mr. McClintock. Thank you very much. And that fits nicely 
in with our agenda, because we are now at question time. I will 
begin.
    Chief Christiansen, the Forest Service once generated funds 
for the Federal Treasury through the sale of excess timber. 
This not only produced healthy forests, but it also produced 
vibrant, prosperous economies for the local communities in our 
mountains. Twenty-five percent of the revenues from Federal 
timber sales were shared directly with the local governments 
impacted, with the balance going back to the Treasury that we 
could then put back into land management.
    The Forest Service, over the past several decades, has gone 
from a net revenue generator to a net revenue consumer. Where 
did we go wrong and how do we get back to those days?
    Ms. Christiansen. Mr. Chairman, I absolutely understand the 
vital importance of these National Forest System lands as a 
part of a larger landscape inclusive of communities that depend 
on these lands for their livelihood and rural prosperity. The 
Forest Service is absolutely committed to getting more work 
done to keep these communities vibrant.
    Managing the lands for forest products is absolutely 
important for the health and vitality and the products 
provided, but there are several other income generation that 
national forestlands provide. The recreation economy from 
national forests is significant. We are absolutely committed to 
work with local communities to define what their needs are and 
to be responsive to those needs and those increased revenues.
    Mr. McClintock. Recreation, though, doesn't produce healthy 
forests. Active forest management produces healthy forests, 
with the byproduct of revenues generated for the Treasury, for 
the local communities, as well as for land management. The 
Forest Service once did that, now it is consuming resources.
    Can you give us, in a minute or so, what is your plan to 
get back to a point where the Forest Service is actively 
managing our forests and generating revenues again, both for 
those local communities and for the Federal Treasury?
    Ms. Christiansen. Thank you. Thank you, Chairman. It is on 
the path that we are on. It is to continue our internal 
reforms. We are producing faster work with better quality and 
are modernizing our forest products work and our environmental 
assessment and decision making.
    Mr. McClintock. The increases in timber harvests are 
encouraging, but they are still only a fraction of the annual 
forest growth. They are only a fraction of what we once 
harvested. How long will it take to get us back to pre-1980 
harvest levels where we were actually producing a sustainable 
forest?
    Ms. Christiansen. Mr. Chairman, we are on an increased path 
upward, with the amount of activity to improve forest 
conditions. We are going to go up by another 15 percent next 
year is our benchmark and our target, on both our forest health 
treatments and our----
    Mr. McClintock. What else do you need from us to get there?
    Ms. Christiansen. We have gotten some really good tools. We 
will always work with you, and any tools you give us, we will 
certainly put them to use. What I am trying to express is we 
are working on our own internal processes as well. And working 
in conjunction with Congress, we really appreciate these tools. 
We are going to put them on the ground as fast as we can.
    Let me be clear that I have not asked our folks to stop 
their work and retool everything, because you know we do plan 
out 18 months, 24 months in advance. That is why these plans 
have to be submitted to me by tomorrow from all our regions, to 
be very transparent on how we are going to implement these 
tools and what the gains are going to be, and then we will be 
evaluating those and we will be glad to work with you.
    Mr. McClintock. Could you give us a quick progress report 
on the new authority granted for categorical exclusions from 
NEPA for forest thinning in the Tahoe Basin that was part of 
the 2016 WIIN Act?
    Ms. Christiansen. Yes. I just talked with Regional Forester 
Moore yesterday. We have gotten a couple good projects in 
there. One large project that is underway is a great 
collaborative with lots of community support. We have gotten 
our tools in order, and they plan to put more in place.
    Mr. McClintock. By the way, I want to give a huge shout-out 
to Randy Moore, the Region 5 supervisor, as well as Jeff 
Marsolais, who I think are doing a splendid job there in the 
Tahoe Basin.
    Do you think this authority should be extended system-wide?
    Ms. Christiansen. We would certainly work with you on that, 
Congressman, absolutely.
    Mr. McClintock. Great. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Nine of the largest fire years on record have occurred 
since 2000. Can you tell us why we have seen such a dramatic 
increase in the size of fires since that year?
    Ms. Christiansen. Yes. Congresswoman, I have been in the 
fire response business for over 35 years, and I will tell you 
it is absolutely correct. A very large fire was a thousand 
acres when I first started. Now, a fire that is 10,000 acres is 
moderate in size.
    It is a number of factors. It is extended drought. It is 
the conditions of our forests. There are a variety of reasons. 
We have excluded fire for a hundred years. Many of these 
landscapes do need some form of fire. We have had less 
management, as the Congressman has just talked about, for a 
couple decades.
    There are a variety of things, and it is more complicated. 
We have 44 million homes in what we call the wildland-urban 
interface. Those homes are important to protect, just as 
watersheds are, so we have to divert resources to protect these 
communities. And hotter, dryer, more intense, unfortunately, is 
what our challenge is in this Nation.
    Ms. Hanabusa. You mentioned in your testimony, last year 
was one of the most devastating wildfire years on record. 
Tragically, dozens of Americans were killed, including 14 
wildland firefighters, who perished protecting lives and 
property. It was also the most expensive year, costing about 
$2.9 billion to suppress the wildfires across the Nation.
    It seems like every year, the Forest Service spends more 
and more and puts more and more firefighters at risk, with 
multiple fatalities each year. Is there anything Congress can 
do to reduce the risk to firefighters or reduce the amount the 
Forest Service spends on firefighting?
    Ms. Christiansen. Thank you, Congresswoman, I really 
appreciate that question. That is the work that the entire 
wildland fire community is looking at.
    Based on some principles of the National Wildland Fire 
Cohesive Strategy, where we know we have to create more 
resilient landscapes and Congress has given us some additional 
tools, we have to take those tools and make the absolute 
commitment it is not business as usual, and get more work done 
to change the trajectory of many of those landscapes.
    It is pretty clear we have to treat at least 20 to 40 
percent of a landscape, and that might not all be National 
Forest System lands, to really have the resiliency we need. 
Additionally, we work with communities so they can become fire 
adapted. Many of these communities, we are going to have fire, 
but we can live with fire.
    And then we have to really look at our response. Some 
fires, with these extreme conditions, we have to really look at 
our probability of success. This is so we don't put unnecessary 
risk to these firefighters and just waste expenses. So, that is 
the 2 percent of the fires that are extreme conditions, and we 
need to respond with the right conditions when the fuels or the 
weather moderates, and sometimes all we can do is protect 
communities or a critical watershed. So, a partnership with 
Congress and communities would be really helpful. Any 
additional tools we would really welcome as well.
    Ms. Hanabusa. How is climate change affecting the forests' 
health, and how does climate change contribute to the 
occurrence of wildfire?
    Ms. Christiansen. Congresswoman, certainly our extended 
drought and changing climate are factors, as well as the amount 
of grown-up fuels on the land, and, again, the human community 
intermixes. There are many factors that have added to our 
complexity. Our scientists have studied that the western fire 
season is 78 days longer than it was just 15 years ago, so 
there are changes in our vegetation and our climate factors as 
well.
    Ms. Hanabusa. Thank you very much.
    Mr. Chair, I yield back the remainder of my time.
    Mr. McClintock. Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    Ms. Christiansen, I think I mentioned in my opening 
statement that Chief Tidwell said there were 58 million acres 
at risk of catastrophic wildfire. I believe that number now is 
up to 70 million. Is that correct?
    Ms. Christiansen. Well, Congressman, we can parse these 
numbers for a while. There are 80 million that are at moderate 
to extreme risk and around 50 million at extreme risk and then 
11 million that are in the critical path of the wildland-urban 
interface and critical watersheds. Those are sort of three 
categories that I talk about.
    Mr. Westerman. In those categories, are you prioritizing 
where you are focusing efforts now? Are you trying to address 
the 11 million acres initially or are you just looking at it 
across the full spectrum of the 80 million?
    Ms. Christiansen. We are getting more precision, because 
just more acres faster is not a good investment strategy, and 
we have to look at the critical risk. So, we are getting more 
fine-tuned with our analytics. Our scientists are really great 
at helping us look at that transmission of risk and where the 
most important timber values, watershed values, and human 
communities are at risk. We are getting more precise.
    Mr. Westerman. That is an area I want you to discuss a 
little bit more. Thank you for the increased efforts that you 
are putting forth already. I believe you mentioned 10 percent 
increase in harvest this year and maybe 15 percent next year. 
So, that takes you from 3 million to 3.3 million, and then from 
3.3 million up close to 3.7 million acres.
    Ms. Christiansen. Well, I will take your numbers. We 
actually are going to produce 3.4 this year, and with the goal 
of reaching 3.7 and then 4.
    Mr. Westerman. My numbers are significantly higher than 
that, if you want to take them. But that was just a quick 
calculation on where I thought, from your testimony, you would 
be.
    So, if we have 80 million acres at risk and the amount of 
forestland moving into that high-risk area is increasing at 7 
percent per year, then we are looking at somewhere over 5 
million acres per year adding to the amount of acreage that is 
already at risk. So, if we are treating less than 6 percent of 
the acreage and we are adding 7 percent or more back per year, 
how do we ever get ahead of the curve? Or at what point do you 
see us ramping up enough that we are actually reducing the 
quantity of acreage that is at catastrophic risk?
    Ms. Christiansen. I lost you on your 7 percent, that you 
said we are increasing 7 percent per year. I am sorry, is that 
what you said?
    Mr. Westerman. That is my understanding, that there is 
about 7 percent additional acreages that go into the at-risk 
category each year. So, the 70 or 80 million that is at risk 
this year would increase by another 4 to 5 million acres next 
year.
    Ms. Christiansen. Yes. I can talk more details about where 
that 7 percent is. It is variable, because while some wildfires 
do actually help reduce hazardous fuel, it is not the same 
every year, but roughly, we are at 3 million acres and we are 
intending to increase that. So, what I hear you saying is we 
are still at a net increase in extreme----
    Mr. Westerman. And with all the good things you are doing, 
it looks like the land subject to catastrophic wildfire is 
going to be gaining ground on you still. So, with the good work 
you are proposing, I am trying to figure out how to get a 
little more acceleration into it so that we can get ahead of 
the curve and start reversing the trend.
    Ms. Christiansen. This is where there is some work we are 
doing, and we would be glad to come in and brief you. We are 
looking at the trade-offs of where we treat and what the 
outcomes of those treatments are.
    Mr. Westerman. If I can get one last question in and give 
you time to answer it.
    Ms. Christiansen. OK.
    Mr. Westerman. On the size and intensity of the wildfires, 
are you doing anything to put these fires out earlier? I know 
there are instances where you want to let them burn because it 
is the right thing to do, but I know there have been cases 
where the fire could have been put out at a smaller size.
    Ms. Christiansen. I appreciate that. We are aggressive in 
our initial attack where we can be successful. And as I said in 
my opening comments, we are successful 98 percent of the time. 
The 2 percent that we aren't is because there are extreme 
conditions that we would be putting firefighters at risk and we 
have no probability of success.
    On the other side of the spectrum, there are cases where we 
believe we can treat fuels by the natural ignition. But those 
are the exception, not the rule. We are always looking at 
improving the way we do initial attack on fires.
    And coming from the state side, I have plenty of 
experience, because I managed and protected somebody else's 
land. But we have some pretty tough ground in extreme 
conditions. So, we will work hard to improve our initial attack 
success rate, but I believe our people are pretty sharp. We do 
ask them to manage with risk in mind, and no life is worth 
getting out a fire quicker.
    Mr. Westerman. Thank you.
    Mr. McClintock. Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    Ms. Christiansen, thank you for being with us today. In 
your written testimony, you talk about a safe and healthy 
workplace environment, so I want to discuss that a little bit 
today.
    As Ranking Member of the Subcommittee on Oversight and 
Investigations, we have tried to focus on and requested action 
to address the pervasive culture across the Department of the 
Interior when it comes to sexual harassment.
    In 2016, Denise Rice, an employee in Region 5, testified 
before the Committee on Oversight and Government Reform on 
rampant sexual harassment and discrimination in the Agency. In 
her testimony, she said, ``Zero tolerance is lip service when 
we know the system is rigged against women for reporting sexual 
harassment or assault.''
    More recently, PBS interviewed 34 current and former Forest 
Service women spanning 13 states who described a culture of 
hostility and retaliation.
    I can appreciate and I welcome the changes that the Forest 
Service has implemented to make it easier to report sexual 
assault and harassment. However, victims will not come forward 
if retaliation remains so widespread and so feared. What is the 
Forest Service doing to help the survivors who have already 
come forward and to stop retaliation throughout the Forest 
Service?
    Ms. Christiansen. Thank you, Congressman, for your 
question. We cannot be successful in achieving our mission 
unless every employee has a safe and healthy work environment, 
and we are committed to doing that. And that is getting under 
the deep parts of our culture and really understanding and 
making shifts, as well as some structural and programmatic 
changes.
    In November of 2017, we opened a reporting center, where 
any employee can, 7 days a week, report any form of harassment 
without the fear of retaliation by having to go through their 
chain of command. We have put more investigators on, so our 
processes are more timely.
    But more than that, it is about what is under this. Why are 
folks afraid to report, and what is the retaliation. Since I 
was appointed Interim Chief, we have developed a Stand Up for 
Each Other action plan that puts additional resources and 
actions in place.
    Next week, all 30,000 employees will close business for a 
day, and they will be involved in a day-long session called 
Stand Up for Each Other. They will go through anti-harassment 
training that is from our recent broadened and strengthened 
anti-harassment policy, and we will be rolling out a new code 
of conduct. And we will be doing some work called Being an 
Ally, because every person in this Agency needs to stand up and 
make sure everyone is respected for what they bring and their 
ideas, even if it is different.
    Mr. McEachin. Would you be kind enough to send us those 
materials so that we can take a look at them?
    Ms. Christiansen. Absolutely. I would be glad to.
    Mr. McEachin. I appreciate it. I am in Cannon 314.
    You indicated that you have put more investigators, I 
guess, into the process. One of the problems with the Forest 
Service using its own investigators is that nearly half of the 
employees interviewed ``express some level of mistrust in 
Forest Service's process for handling sexual harassment and 
sexual misconduct complaints.''
    Given the wide mistrust of the Forest Service's 
investigatory process, are you still on track--that is, the 
Forest Service, not you, ma'am--is the Forest Service still on 
track to hire outside investigators by March 30, and how is the 
Agency supporting each region's efforts to do this?
    Ms. Christiansen. Yes, sir, absolutely. We are on track. 
For California, all of our investigators are contract 
investigators. And we went further than what the OIG report 
recommended, and we are just now getting a contract out. So, 
all sexual harassment cases across the Agency will be 
investigated by a contract investigator.
    Mr. McEachin. Thank you, ma'am.
    I yield back, Mr. Chairman.
    Mr. McClintock. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Thank you, Ms. Christiansen, for being here today. I want 
to follow up on Mr. Westerman's question on this idea that 2 
percent of the fires are not contained and all the others are 
sort of successful. I think his question was, what is the 
policy to go in and put the fires out quickly? And you 
responded that 2 percent are not successful and the rest are.
    In 2012, we had two major fires in New Mexico. One was the 
Whitewater Baldy, 300,000 acres. If you go back through the 
daily reports of the command post, early, about day 15 or so, 
they are talking about watching the fire and it is achieving 
its management objectives. Then the winds got up, as they will 
occasionally do like 365 days a year in New Mexico, and blew it 
out of control.
    So, is that one of the 2 percent or is that one of the 
other fires? Is that one of the fires that was controlled, in 
your recordkeeping? And I am very interested in how you 
classify these fires.
    Ms. Christiansen. If we are unable to suppress a wildfire 
in less than 10 acres, then we call that an extended attack, so 
then we are not successful.
    Mr. Pearce. Is that one of the 2 percent or is that one of 
the----
    Ms. Christiansen. Yes, that would be a 2 percent.
    Mr. Pearce. So, you are telling me that only 2 percent of 
the fires move beyond 10 acres?
    Ms. Christiansen. In the number of fires. Now, clearly, 
there are far more acres in the 2 percent.
    Mr. Pearce. I am just talking about the number, because 
when I watch in New Mexico, there was another fire running at 
that same time. It started out to be less than an acre or two, 
and they had 20 people standing around it for 3 or 4 days. 
Again, the wind got up, and that is when it burned down 254 
buildings and 30,000 acres.
    That was the previous administration. I am wondering, do 
you have the same objective here of letting fire--you had made 
the mention that there is a need for some form of fire in our 
forest. The previous administration had a very precise thing 
that we are going to let fire do its management, achieve its 
management objectives. So, I guess I am asking, is that same 
perception still there?
    Ms. Christiansen. The Federal Wildland Fire Policy still 
exists, sir, but I would say how we implement that is what you 
are asking. Let me just give some quick context.
    Mr. Pearce. I have a couple more questions.
    Ms. Christiansen. OK. Yes, there are places where fire is 
an important tool to reduce the hazardous fuels on the 
landscape. So, where we can do it----
    Mr. Pearce. But it seems to be that that is a generalized 
assumption. And when you have a drought of historic 
proportions, which is going on right now, and when you have the 
fuel buildups which you have going on right now, and they have 
existed for the last 10 or 15 years, then to say that there are 
places we are going to let fire do its management objectives 
doesn't make sense, but it looks like what is happening.
    Ms. Christiansen. Agreed.
    Mr. Pearce. Moving on, you mentioned in your report that in 
one state you have 50,811 acres, and that you can tell that is 
a point of pride for the Forest Service. And you mentioned it 
is 36 projects. Now, keep in mind, if I divide 36 into the 
50,000 acres, you come up with about 1,411 acres. Our forests 
are a million acres plus in New Mexico, and these projects of a 
thousand acres are never going to get there. You divide a 
million into a thousand, then you are never going to get it 
clean, and that is what we face.
    Some of the forests in New Mexico are trying to put more 
wilderness in areas that do not qualify. They are going to 
cherry stem out all of the nonqualifying factors. Are you aware 
of these efforts to create more wilderness in New Mexico when 
the local communities are standing up in arms saying we do not 
want more wilderness?
    Ms. Christiansen. I am not precisely aware of those.
    Mr. Pearce. You should take a look at the Cibola, you 
should take a look at the Gila, and any others.
    Ms. Christiansen. OK. I will.
    Mr. Pearce. In Catron County, the Gila, you have the 
wilderness of about 3 million acres, and then you have the Gila 
National Forest, another million acres. They have just asked 
for rocks from the borrow pits to put on the roads, because 
they have 907 miles of roads through the Forest Service and 
they bog down completely, because it is just very good soil. It 
is just clay soil. They are being asked to bring that rock from 
Arizona at tremendous cost.
    Is there any way that a local county can get--I mean, it is 
not like we are running out of rocks in the Gila. They are in 
plentiful supply, and we have local agencies that will tell us 
if we get too deep into the rock supply. Can't we just have 
some reason from the local Forest Service people and get local 
rocks instead of Arizona rocks?
    Ms. Christiansen. Congressman, I don't know the 
particulars, but I would be glad to work with you. Absolutely.
    Mr. Pearce. I will get you the particulars. Thank you, Mr. 
Chairman. You have been gracious.
    Mr. McClintock. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    And thank you, Ms. Christiansen, for being here with your 
wealth of experience, and, of course, some of that experience 
being from Phoenix, Arizona. I greatly appreciate it. You must 
be very, very wise in that case, so thank you for being willing 
to take some questions.
    Specifically, being in Arizona and actually serving in the 
State House, I saw a lot of the effects of our wildfires, 
especially where our wild areas meet our urban areas. It is 
usually the most dangerous flashpoints. So, I understand that 
residential development in areas adjacent to fire-prone 
forests, what we call the wildland-urban interface or--I am 
going to say this incorrectly--WUI. Is that right?
    Ms. Christiansen. WUI.
    Mr. Gallego. WUI, thank you. WUI continues to increase.
    In 2010, the Forest Service estimated that there were 
almost 44 million homes, including second homes, in this area. 
We know that these areas are very attractive to Americans--I 
hope to be able to afford one of these places myself some day--
for the countless reasons that we all know. We know that 
residing there puts us at significant risk, both the residents 
and, of course, the first responders, as we saw what happened 
not too many years ago with our first responders in northern 
Arizona, and puts additional pressures in terms of firefighting 
budgets and, in general, just the watersheds, the harm to the 
watersheds.
    What concerns do you, or the Forest Service, I should say, 
have about these areas that are beyond the borders of the 
Federal forests? And how can Congress encourage a smarter 
approach to development in the WUI?
    Ms. Christiansen. Thank you, Congressman. A really good 
question. And it is something, quite frankly, that is really 
important to us. We encourage, while we are trying to create 
resilient landscapes on the national forests, that the 
communities also work to create fire-adapted communities. As 
you know, most of the states oversee, or the local governments, 
their local zoning and building codes. We work with entities 
that are willing to work on being fire-wise communities. We do 
some technical assistance through the state forestry agencies. 
We partner, because we have to work on both sides of the 
boundary.
    There are private lands, even small tracts of private lands 
that cumulatively have fire risk, so it doesn't work to do it 
in a cookie-cutter fashion. We need to create the resiliency 
and we need to be responsive for a community that is next to a 
national forest that we are going to do the land treatments, 
especially when they are showing up. So, any work Congress can 
do to help us give that technical assistance across the border, 
we very much appreciate.
    Mr. Gallego. And I understand, especially from the lessons 
that we learned from Yarnell in Arizona, how complex it could 
be fighting fires around WUI, and how complex it is in terms of 
the environment.
    Can you just kind of go into details about why it is so 
complex to fight fires in that environment? I understand the 
difficulty of planning ahead of time, because you have to deal 
with multiple agencies, zoning, all this kind of stuff, and, of 
course, just individuals wildcatting out in the middle of 
nowhere, but can you just kind of describe for the Committee 
what is the overall problem that you are seeing and the 
complexity of it out there?
    Ms. Christiansen. Well, Congressman, there are several 
factors. Certainly, when there is a community that is 
imminently at risk, that will take the focus of the 
firefighting effort, quite frankly, because human life, whether 
it is a firefighter's life or a public citizen's life, is 
utmost. So, it will take the emphasis away from the overall 
strategy on the fire.
    And, quite frankly, we have increased fuel buildups on 
these lands, certainly on national forests, but on other lands 
as well, and that creates more intensity. We have extended 
drought and we have many areas that have extensive dead and 
dying trees, through insects and disease buildups. And all of 
those factors can make it far more complex and high risk and, 
unfortunately, more expensive and more damaging.
    Mr. Gallego. Finally, in the few minutes I have left, how 
will you guide the projects under the new categorical exclusion 
that we included as part of the Omnibus, to ensure that we are 
only removing the fuels that are accumulating in the forests 
and material that pose a high risk of fueling these fires?
    Ms. Christiansen. Yes, thank you. It is quite clear that 
the categorical exclusions are to create fire resiliency. There 
are numbers of ways to create that resiliency and some 
modification of the vegetation.
    So, we have oversight. We will be looking. We have given 
specific guidance to the regions. They are doing their first 
look now, these are the reports that have to be in to me by 
tomorrow. Then we will be looking at what they have submitted 
and providing any guidance back. And we work with the local 
communities and the collaboratives that are established on 
these forests as well.
    Mr. Gallego. Thank you.
    Mr. McClintock. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman.
    And, Interim Chief Christiansen, thank you for being here 
as well. As you are probably aware, in southwest Colorado now, 
we have what is called the 416 Fire that is burning, have over 
5,100 acres that have been burned. Five hundred homes were 
evacuated today. We have had over 1,276 homes already 
evacuated, 750 more homes are under pre-evacuation orders that 
are going on. It is only 10 percent contained.
    And I have full respect, deep appreciation, and join with 
you in wanting to make sure that we keep our firefighters safe. 
We have 598 firefighters that are currently battling that blaze 
and 20 aircraft.
    When we are talking about being able to keep some of the 
firefighters safe, when you get into the rugged terrain in 
southwest Colorado and the San Juan Mountains, it is difficult 
to be able to amble up and down those hillsides. Sometimes 
aerial firefighting is the best way to try to get some 
suppression and control over the fire. And I sent you a letter, 
and I don't know if you have had the opportunity----
    Ms. Christiansen. I have.
    Mr. Tipton. If you can maybe get into that just a little 
bit in terms of the call-when-needed aircraft versus the 
exclusive use, the determination by the Forest Service to be 
able to reduce that fleet from 20, I think, down to 13, if I 
recall correctly.
    It is my understanding that the exclusive use, the cost is 
about 54 percent less. The response time is quicker. And I just 
wanted to be able to understand some of your thought process in 
terms of that decision.
    Ms. Christiansen. Certainly, Congressman. We are closely 
watching the fire in the San Juan and hear your concerns.
    Let me just first start by saying that large air tankers 
and aircraft are a very important wildland fire response tool, 
but they alone don't put out the fires. They slow the spread. 
They give the time for the ground crews to do the fireline 
construction and to separate the fuel. So, it is really in 
tandem.
    For this year, we will have the same amount of air tankers 
available as we have had last year, 25 large air tankers 
available, and later in the summer, up to 30 more, and then we 
have additional surge capacity from the military and partners 
in Canada.
    But in regards to your specific question of exclusive use 
and call-when-needed, we need to look at the entire season. 
And, yes, the call-when-needed large air tankers are more 
expensive on an hourly rate. But the exclusive use, of course, 
we pay for and are committed for the entire, we call it the 
minimum performance time.
    So, we work hard to find the right balance to (a) provide 
protection to life and property and our critical natural 
resources; and (b) to give fiscal integrity to the taxpayers of 
this country. We will evaluate that balance and change that mix 
between exclusive use and call-when-needed after each season.
    Mr. Tipton. OK. I appreciate your answer on that.
    I also want you maybe to speak, given some of the questions 
that we have had that I think have been very insightful, we 
have the roundheaded beetle, which is impacting some of the San 
Juan Forest again. North of Dolores, we have lost maybe 10,000 
acres of pine trees that are in it. If you would speak a little 
bit to the importance of clearing out and thinning some of 
those stands.
    I was outside of Pagosa Springs, and we were seeing a 
forest that the forest ranger pointed out to me had trees that 
were growing at elevations they should not be growing, 
undergrowth that had just taken over the forest floor, and how 
that actually increases something that was brought up earlier 
by you and others, the intensity of a fire and making it that 
much harder to be able to put out.
    Ms. Christiansen. Yes. You are absolutely right, 
Congressman. In my simple terms, I call it a smorgasbord. When 
you have a smorgasbord and you have all this to feed from, then 
the population is going to grow. And these are natural insects, 
but they have these big outbursts, because we are too 
overstocked.
    And all these small dense trees are like big straws just 
sucking water out of the ground. So, the drought intensity 
becomes worse, they become weakened, and they die. So, very 
simply, the science is very clear, having the right stocking 
level is a forestry term, but the right amount of trees where 
they can be healthy and they can thrive and they can become 
bigger is where we have to be and where we are going.
    Mr. Tipton. Thanks. And I appreciate the great work that my 
colleague, Mr. Westerman, has done on the Resilient Forests Act 
to be able to help address some of those challenges.
    Thank you, Mr. Chairman, and I yield back.
    Mr. McClintock. Thank you.
    Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. Thank you for 
holding the hearing.
    And, Ms. Christiansen, thank you for being here today.
    According to the Forest Service, in Fiscal Year 2015, the 
USFS harvested less than 2.9 billion board feet of timber 
across 204,763 acres, far less than what is needed. And the 
June 1, 2018, forecast from the National Interagency Fire 
Center says that there is potential for significant wildfire 
activity in most of the West, including Idaho.
    What do you see as the sustainable level of harvest from 
the Forest Service, and how can you ensure that the industries 
that rely heavily on wood products have the resources they need 
at an affordable price?
    Ms. Christiansen. Thank you, Congressman. It is more 
activity in the forest to create more resiliency. Now, that is 
not all. Creating the resiliency, reducing the fire hazard, as 
not every acre is going to produce board feet. Some of it is 
reducing very small dense vegetation. An integrated approach, 
in many of these landscapes where we do some mechanical 
treatment and then we go in and we do prescribed fire, is going 
to get us to where we need to be.
    Now, producing timber does have an outcome of critical 
products for communities. And partly, it will reduce hazardous 
conditions, but it is not a one-for-one on each acre. And we--
--
    Mr. Labrador. I understand that, but are we seeing an 
increase or a decrease in fires?
    Ms. Christiansen. We are seeing an increase in fire, and we 
are committed to increase our work in treating hazardous fuels, 
thanks to Congress' commitment to us and investment, and the 
amount of board feet or vegetation----
    Mr. Labrador. What is the sustainable level of harvest from 
the Forest Service? If we want to see a decrease in fire and we 
want to see an increase in board feet, what should we be doing? 
Because, obviously, we are seeing the opposite. We are seeing 
more fires.
    Ms. Christiansen. Yes. We are committed to go up to 4 
billion board feet in the next 2 years.
    Mr. Labrador. OK. The forest products industry in Idaho and 
I are also concerned about the costs associated with NEPA 
compliance. As you know, time spent preparing NEPA documents 
pulls valuable taxpayer dollars from other parts of the Forest 
Service. A report from 2016 found in 2006 alone, the nearly 
6,000 actions required by NEPA cost the Forest Service nearly 
$365 million.
    That number is curious to me, because it averaged out to 
about $1 million a day over the course of a year. I know this 
Administration and you are interested in renewing and 
streamlining the NEPA review process. What is the Forest 
Service doing to reform the process?
    Ms. Christiansen. Thank you. We launched a concerted effort 
8 months ago. I call it deconstructing the entire process. It 
is not to cut corners, but it is to rebuild back the analysis 
based on good science that is needed and nothing more than what 
is needed.
    We have held 13 workshops across the Nation, got good ideas 
from 55,000 comments on our notice to do new rulemaking for our 
procedures and our policies and training our line officers. We 
are deconstructing across our whole agency. And I am pleased to 
report, in just 8 months, we have reduced the timeline, and in 
that 8-month period, we have reduced the cost by $30 million. 
So, we saved $30 million that we can put on active management 
on the ground, and we are just getting started.
    Mr. Labrador. What are your long-lasting solutions for this 
problem?
    Ms. Christiansen. Our long-lasting solution is better 
training, more simplified processes, using our science in the 
right place where we need it to be defensible in our good 
quality environmental decisions, and being inclusive, but not 
overdoing the process and what is needed. We have a goal of a 
10 percent improvement this year, a 10 percent next year in 
2019, and a 20 percent improvement in 2020.
    Mr. Labrador. OK. Our office is frequently contacted by 
county commissioners who struggle to pay the bills for schools, 
roads, bridges. The Forest Service routinely relies on 
stewardship contracts and Good Neighbor Authority to do work 
necessary in the forest. As you are aware, Good Neighbor 
Authority and stewardship contracting does not require revenue 
sharing with the counties. How can we encourage the Forest 
Service to use traditional timber sales so that local 
communities can benefit economically?
    Ms. Christiansen. I definitely hear the concern, 
Congressman. We have found that by using all three tools, we 
are able to get more work done. We are able to do it with our 
partners across boundaries at a landscape level. But I do 
understand the consequences that only timber sales provide the 
revenues. With the new Secure Rural Schools, Congress gave the 
funds that the county really needs and they were dependent on.
    Mr. McClintock. Thank you.
    General Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    And thank you, Ms. Christiansen, for being here. It is 
great to have you onboard.
    Which one of the four national forests would you like to 
visit first in the 1st District of Michigan: the Manistee, the 
Huron, the Hiawatha, or the Ottawa? I am going to presuppose 
there is already room for you in the Ottawa.
    But having said that, when you have a district with four 
national forests in it and you live in the middle of one, it 
becomes very personal when it comes to seeing how stretched the 
Forest Service resources and assets have been over the decades 
and what kind of declines that can cause. Regardless, if 
everything remained the same, when you have less people doing 
the work necessary to be done and resources diverted to other 
parts of the country, you can see a long-term degradation.
    Again, we are glad to have you onboard, because I know you 
bring not only experience but a fresh look at how we are going 
to accomplish some big challenges.
    Here we are in the 2018 Omnibus, they made a big change in 
how wildfire funding is apportioned. With a new funding 
strategy in effect in 2020, how is the Forest Service 
preparing, and how will it capitalize on new program funding 
certainty?
    Ms. Christiansen. Thank you, Congressman. You articulated 
that very well. We have 39 percent less employees working on 
the non-fire programs than we did 15 years ago. There has been 
a real decline, as you articulate. And when the fire funding 
fix goes into effect in 2020, it will stabilize our operations. 
So, that continued decline of the critical work on the 
preventative side, the proactive side, the doing the work we 
need to do, providing the services and recreation and 
opportunities, at least we will be stabilized.
    My message consistently, since I stepped into this role, is 
it is not business as usual. We have an opportunity, we must 
perform. We must take these tools, we must put them into play, 
and with the hope and the knowledge that our operating 
environment is going to be stabilized in 2020 so the 10-year 
rising average doesn't keep eating into that piece of the pie.
    Mr. Bergman. Let me ask you a question, because I know my 
time will run out here. Obviously, you have a handle on this. 
Do you think you are going to have to borrow any funds for this 
year? And if so, how much?
    Ms. Christiansen. Congressman, the mean projection is right 
around the amount of money that we have, $1.5 billion roughly. 
That is the median projection from our scientists. So, if we go 
on the upper end, which is to $1.9 billion, there would be a 
good chance we would have to borrow.
    Mr. Bergman. OK.
    Ms. Christiansen. But we do appreciate Congress' additional 
$500 million in the suppression account.
    Mr. Bergman. And, you know, you as the chief, you play a 
huge role in setting the tone setting, as we would say in the 
military, the command climate for the Forest Service. And the 
Fiscal Year 2018 Omnibus included new authorities to help the 
Forest Service do its job more efficiently and effectively. 
However, new authorities mean little if they are not 
implemented effectively by the Agency without delay.
    What's your plan to ensure that the authorities provided in 
the Fiscal Year 2018 Omnibus are implemented sooner rather than 
later and effectively?
    Ms. Christiansen. Yes. Thank you. I have appointed my top 
leaders that we are going to do our oversight ourselves. It is 
in the performance accountability of all my senior leaders, and 
I am getting out personally to every region to have them tell 
me why they can't put these into place, and what do they need 
to get them executed in a timely way.
    You are right, I set the tone and those expectations are 
set. And while I am in this job, you can count on me.
    Mr. Bergman. Well, good, then I don't have to ask you the 
next question. I see my time is running out. I know you will 
hold everybody, including yourself, but especially those 
underneath you, accountable for their actions because that will 
lead to the results we need.
    Thank you, Mr. Chairman.
    Mr. McClintock. Mr. Gianforte.
    Mr. Gianforte. Yes. Thank you, Mr. Chairman. Thank you, Ms. 
Christiansen, for being here.
    Last year, I was on the ground for five fires in Montana. I 
was even fortunate enough to have Secretary Perdue join myself 
and Secretary Zinke at one fire. We saw firsthand the result of 
failing to manage our forests. We had over 1.2 million acres, 
as you are well aware, burn in Montana last year. It is about 
the size of the entire state of Delaware. Livelihoods were 
threatened. We lost two lives. Wildlife habitats were 
destroyed. And we had dangerous air quality for many of our 
communities, including ash falling on cars. It was a terrible 
thing. We almost don't have a summer anymore; it is just the 
smoke season.
    As you stated, Chief Christiansen, the fire season is 
getting longer, and what used to be a once-in-a-lifetime event 
is now becoming a common occurrence. When catastrophic 
wildfires strike, we keep treating the symptoms by just 
suppressing the fires, and somehow we think that the next 
wildfire season will be different. We have to address the 
underlying issues.
    And I agree with the comments that you have made here, and 
I appreciate your leadership on this. We have to make our 
forests healthier so we can make the wildfire season less 
severe. That was why I was really encouraged by the wildfire 
funding fix, as well as some of the forest management reforms 
in the Omnibus. It is a good first step, but we have to do 
more. I, too, share your affinity for the Good Neighbor 
Authority, and I urge you to continue to partner with willing 
states to perform more active management.
    Ms. Christiansen, to promote fire resilient forest and 
recovery after a catastrophic event, how is the Forest Service 
utilizing salvage logging for post-fire and post-disease stands 
of trees.
    Ms. Christiansen. Thank you, Congressman. I am quite 
pleased and proud of our folks in Region 1. They had a tough 
year, as well as all the citizens did, and they executed 
immediately. Regional Forester Martin put strike teams 
together, just like we do in fire response, and said we have to 
figure out where we can go to get our salvage done, where is 
the right place and how can we expedite it.
    They worked with industry, because we needed to get their 
evaluation of what their capacity was to take these materials. 
We used our analytics to do a broad brush first of what was 
available, not on a steep slope, not in the wilderness, and 
then took that to industry. And they focused in on the acres 
that had the biggest chance for salvage.
    We have an authority on my approval, the chief's approval, 
an emergency situation determination where it would forego the 
process of a review for public challenge. That is if the public 
was involved early in the process. I signed the first one of 
those last week. I expect four more coming in. Regional 
Forester Martin knows what my expectations are, and I 
anticipate signing all those as well.
    Mr. Gianforte. OK. And I understand these salvage 
operations actually generate revenue which can be used for 
reforestations. This is part of the recovery.
    Ms. Christiansen. Yes.
    Mr. Gianforte. I appreciate that. I understand the Forest 
Service current salvage categorical exclusion is limited to 
about 250 acres per project. In an era where fires are measured 
in thousands, tens of thousands, or hundreds of thousands of 
acres, is this 250-acre limit a restriction?
    Ms. Christiansen. Well, yes, it could be, but with the new 
categorical exclusion for fire resiliency, we believe in some 
areas it will qualify that we can use that.
    Mr. Gianforte. So, if we were able to increase the 
categorical exclusion for salvage operations to more like 
landscaped size projects, would that give you more discretion 
to get our forests healthier again?
    Ms. Christiansen. We will use any tool that you give us, 
Congressman.
    Mr. Gianforte. OK. I appreciate the work you are doing in 
Region 1 in particular, and your leadership despite all of the 
frivolous litigation that we navigate through to do these 
projects. I appreciate you continuing to work with me and my 
colleagues to make our forests healthier.
    With that, I yield back.
    Ms. Christiansen. Thank you.
    Mr. McClintock. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chair, for having this hearing.
    Ms. Christiansen, I have a comment and then I am going to 
ask you a couple of questions. My comment is based on earlier 
discussion on what causes forest fires. I harken back to the 
Hayman fire in Colorado in 2002, where one citizen was killed, 
five firefighters died en route to the fire, $40 million of 
firefighting costs, 133 homes destroyed, and 138,000 acres 
burned. There was a direct cause and what we concluded in 
Colorado was an indirect cause.
    The direct cause, amazingly, was a U.S. Forest Service 
employee started the fire. But the indirect cause is we realize 
that environmental laws had kept forests from being cleared. 
There was just an excess buildup of fuel. So, we blamed 
environmentalists for the fire. That is the perspective of a 
lot of us in Colorado. You don't have to comment.
    My questions, though, the first one, and this will help 
with fighting fires, is about very large air tankers, VLATs. I 
want to thank you for working with my office, with the U.S. 
Army, and Colorado Springs Airport to locate a new VLAT tanker 
base at the Colorado Springs Airport. Right now, the nearest 
ones are Phoenix and Roswell, New Mexico. This temporary base 
hopefully will become permanent and it will allow the Forest 
Service to utilize VLATs faster and in a more cost-effective 
way. It will also help the MAFFS mission, the C-130s, located 
at Fort Carson to fight fires.
    I hope that we can do this beyond this current year, but I 
am concerned going forward that there seems to be a reluctance 
about the Forest Service using VLATs, very large air tankers.
    Last year, for instance, the Forest Service published a 
VLAT solicitation and then withdrew it before there were any 
responses. A few weeks ago, they published another 
solicitation, but then withdrew it a week later. Why is there 
difficulty in bringing a solicitation to completion? And is the 
Global SuperTanker, which is based in my district, excluded 
from competing for Forest Service contracts?
    Ms. Christiansen. Thank you, Congressman. Let me address 
the VLATs first. They are a very effective tool in the right 
conditions. And when we were in the transition from the legacy 
aircraft 5 years ago in 2012, to these next generation, I have 
to say that all the vendors really stepped up and created some 
really useful platforms, because we didn't know. We were 
working together to create these new platforms. And as we have 
gotten better at understanding their performance, we also, 
quite frankly, have to do our due diligence to the taxpayers 
and do contracting where we can have the right resources in the 
right conditions.
    So, VLATs are very important in the right place. We don't 
always need 19,000 gallons of retardant, with some fuel types 
we may. I am disappointed. In our contracting, it was just an 
error that it had to get pulled back for a week. It is out now, 
and we are working diligently to make sure all vendors have 
access and that we have access to them, both by getting the 
right resources and doing our fiduciary response----
    Mr. Lamborn. You will work with us on making this more 
available?
    Ms. Christiansen. Yes, sir.
    Mr. Lamborn. OK, thank you.
    And last, real quickly, unfortunately there are, in 
Colorado, some illegal marijuana growing operations on Federal 
lands, including Forest Service land. And this wreaks havoc on 
wildlife, the water, terrain, and everything else. It is a 
safety hazard for people who stumble upon these because cartels 
are involved, and law enforcement is troubled by this 
obviously.
    What can Congress do to help the Forest Service fight these 
illegal growing operations?
    Ms. Christiansen. Thank you. You are absolutely right, we 
see an uptick--it is more than an uptick, it is a steep 
increase--in the amount of what these drug trafficking 
organizations are growing on the National Forest System, 
Colorado and California in particular, and the illegal 
pesticides they bring in that are really health hazards. And we 
find, when we have the resources to go in and remove the 
operation, then the chances of it to be reoccupied are far 
less. Sometimes we don't have the resources to actually 
deconstruct every one of these because there are so many, and 
then they will come and get reoccupied. So, it has really 
helped to get every one of those remediated and out of there, 
and great partnerships with our other Federal, state, and local 
partners as well.
    Mr. Lamborn. Thank you. We will work with you on that.
    Mr. McClintock. Chairman Bishop.
    Mr. Bishop. Thank you, Chief; thanks for being here. Let me 
go through about four areas with you, if I could.
    First of all, I would like to talk to you about the Good 
Neighbor Authority, then maybe a followup on what Mr. Westerman 
was asking in his question, perhaps talking about Puerto Rico 
as well, your board feet goal, and then you can play around 
with the marijuana that is owned in Colorado.
    With the Good Neighbor Authority, you have already said 
that the number of agreements alone is not indicative of the 
quantity of work that is going on. For example, Utah's schedule 
in 2019, drew about 50,000 acres. Is that typical of the pace 
and scale of these agreements or is that an outlier?
    Ms. Christiansen. Congressman, I think it is pretty 
typical. And these agreements, certainly a large part of them 
are vegetation management, but some of them are stream 
improvements and they might be other activities that you really 
can't do an apples-to-apples comparison on amount of acres. So, 
I would say it is about average, but it might be a little bit 
higher than normal.
    Mr. Bishop. So, for example, if the timelines and the scope 
were to be expanded, would you be able to accomplish more?
    Ms. Christiansen. I am sorry, I don't understand--timelines 
and scope of the good neighbor?
    Mr. Bishop. Of the good neighbor agreements.
    Ms. Christiansen. Yes. Well, certainly now with the 
addition to be able to do road maintenance and reconstruction, 
we can certainly get more done.
    Mr. Bishop. What plans do you have of either expanding 
these or are there limitations to your ability to expand the 
timelines and the scope of these agreements?
    Ms. Christiansen. Our timelines are, you may not have been 
in the room, but every one of our regions has to get a plan to 
me by tomorrow of how they are updating the Good Neighbor 
Agreements, to include the new roads provision.
    In regards to the second part of your question, it really 
takes a willing partner, and our states are showing up in a big 
way. But not every state has the capacity, so we are working on 
ways to help the state have capacity as well.
    Mr. Bishop. Is there stuff Congress can do to eliminate 
limitations on your abilities to grant them?
    Ms. Christiansen. We are still learning, but I think there 
probably are, and we would be glad to work with you. I really 
appreciate that question.
    Mr. Bishop. All right. Well, I will work with you in the 
future.
    I was not able to hear everything you said for Mr. 
Westerman's question about what you were doing to try to 
increase the carryout versus the burnout. Do you want to expand 
on your answer? You were kind of cut of on the response to his 
question.
    Ms. Christiansen. Yes. So, if we are only looking at our 
fire resiliency, then we have the analysis and we can show how 
many acres we can treat and which acres we should treat first 
and when we are going to have the most protected. But we are 
also trying to balance the timber outputs and the other goals 
of what we are trying to manage on the landscape.
    So, it is not a one-for-one answer of what kind of outputs 
we want. We have a tool that we are working on, a model that 
can show how much timber output we are trying to get, how much 
reduced hazard on the landscape and critical watersheds or in 
wildland-urban interface areas and how much acres can be 
treated. We want to sit down with the states and local 
leadership, with all of you in the committees, and talk about 
what those trade-offs are. But certainly more work is needed, 
and we are committed to do more work.
    Mr. Bishop. All right. I know a member of our Committee, 
Representative Gonzalez, has written Secretary Perdue about 
what you intend to do on the reforestation of the Puerto Rico 
forest. I have like 1 minute, so you can spend like 20 seconds 
on that and maybe answer in letter form later on. Could you 
also at some point tell me if your goal is 4 billion board 
feet? You are at 3 right now?
    Ms. Christiansen. We are at 3.4 for this year.
    Mr. Bishop. You don't have a bigger goal than that? Do 
Puerto Rico first and then hit where your goals are supposed to 
be.
    Ms. Christiansen. OK. Our reforestation funds are limited 
because of how many acres and how many hurricanes we have, in 
addition to our regular reforestation, so we are working on a 
solution. And I would be happy to work with you to see what you 
might be able to do to help us on Puerto Rico.
    Mr. Bishop. And a bigger goal?
    Ms. Christiansen. A bigger goal? Yes, we are working on----
    Mr. Bishop. Maybe I just heard it wrong. Your real goal is 
40 billion, right?
    Ms. Christiansen. Yes, sir. Beyond my lifetime, but yes, 
sir.
    Mr. Bishop. OK, thank you.
    Ms. Christiansen. Thank you.
    Mr. McClintock. Thank you.
    Mr. Gosar.
    Dr. Gosar. Thank you.
    Acting Chief Christiansen, good seeing you. I understand 
that a small group of U.S. Forest Service leaders were convened 
to create a vision for the forest products modernization, a 
strategic effort to better align the Forest Service's culture, 
policy, and procedures to increase the pace and scale of forest 
restoration. And I understand that solution teams were convened 
to develop specific recommendations and that those 
recommendations were due in March or April of this year.
    Have the solution teams completed their work and have they 
reported to you, the Acting Director?
    Ms. Christiansen. Thank you. The solution teams are all 
physically in this week. They are finalizing their 
recommendations, and that will be coming to me in the next few 
weeks.
    Dr. Gosar. Could you give us several examples of 
substantial or innovative solutions that will speed up forest 
restoration in the western United States, where tens of 
millions of acres are vulnerable to catastrophic fire?
    Ms. Christiansen. Yes. I will be really frank. Our policies 
that were created several years ago don't match our current 
conditions with the different kinds of vegetation that we need 
to remove. And technology has changed significantly and we have 
not kept up with what technology can do. We are starting to 
implement virtual boundaries so we don't have to do all the 
surveying, and there are several technology answers. And then, 
quite frankly, it is about our culture, about not being stuck 
in the way we have always done business and pushing our folks 
to innovate, but also giving them an opportunity to have some 
learning and some failures with that.
    Dr. Gosar. I am going to stray a little bit here. Are you 
familiar with Nature Conservancy's lidar?
    Ms. Christiansen. I am.
    Dr. Gosar. And is that a direction in which you are going 
to go?
    Ms. Christiansen. Yes, sir.
    Dr. Gosar. I mean, this is rocket science that is a no-
brainer.
    Ms. Christiansen. Yes, it is.
    Dr. Gosar. So, when will these innovative aspects be 
implemented? Give us a date. We are already behind. We are in 
June, when we were expecting March and April to have these 
done. So, talk to me about what you are setting as a date for 
implementation.
    Ms. Christiansen. Well, I had benchmarked for the end of 
this year and then what is going to get accomplished in Fiscal 
Year 2019. More specific dates than that, Congressman, I don't 
have, but I would be glad to get back with you.
    Dr. Gosar. I am antsy just because we have a horrendous 
fire season ahead of us and we can't wait.
    Will you need to have modifications to the handbook or the 
manual directives be necessary to implement these innovations?
    Ms. Christiansen. I am certain we will.
    Dr. Gosar. And when do you think those changes would be 
done?
    Ms. Christiansen. The goal would be to get those moving by 
the end of this year.
    Dr. Gosar. Were there any solutions identified that would 
require congressional action? I know that you still haven't got 
them, but have you seen any of these?
    Ms. Christiansen. Not anything yet, but I really appreciate 
the openness that we can come talk to you.
    Dr. Gosar. OK. In Arizona, the Forest Service has over 
500,000 acres of timber that have been cleared through the need 
for process. And a vast majority of timber that needs to be 
removed is small diameter. With the low economic value, what is 
the Forest Service doing to streamline its business practice, 
reduce the cost, and make the timber more economically 
accessible to the industry?
    Ms. Christiansen. Yes, Congressman, it really performed in 
getting the need for clearing acres and getting it implemented 
has been----
    Dr. Gosar. I want to share with you, the business is gone 
and so we are having to re-bring the business back. There is no 
trust there because you have the lawsuits from CBD and all 
these other aspects that have really put them out of business. 
So, we have to reinvent the business of the timber industry, 
particularly down in the Southwest.
    I think that is the frustration, are we going to be 
creative or are we going to have more flexibility with our 
foresters? Are they going to have some nimbleness that they can 
actually input at the local level? Because this is getting 
frustrating, because out of these 500,000 acres, we still 
haven't even hit 15,000 acres on an average year in clearing.
    Ms. Christiansen. We are offering contracts outside of 
Phase 1 of the large stewardship with the main contractor on 
4FRI, so we are putting some other things into place and we are 
working with Arizona Corporation Commission, because really 
this is breaking new ground, as you said. And Regional Forester 
Joyner and I talk often about pushing the envelope, and there 
are the FARs, the Federal Acquisition Regulations, that is a 
constraint on how we do our contracting. But as I said, we have 
to push the envelope on that.
    We are really trying to be creative. We are using other 
expertise, quite frankly, of how we break through and attract 
industry, which as you said, is much needed there.
    Dr. Gosar. I will have other questions for you in regards 
to disposable lands within the Forest Service. So, thank you.
    Ms. Christiansen. Thank you.
    Mr. McClintock. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman, for the Committee 
time today.
    And I thank you, Chief Christiansen, for your appearance 
here today, as well as your close attention to this and on our 
issues in California. Thank you.
    You spoke about it here with the recent adoption of 
vegetation management and power line zones on Forest Service 
land in the recent Omnibus bill. You alluded to that in that I 
think you were saying you are announcing some rules and 
implementation tomorrow as part of that package?
    Ms. Christiansen. Yes, we have done some guidance out to 
the regions of what is clearly expected, the timelines, how we 
need to be responsive on these vegetation management projects, 
yes.
    Mr. LaMalfa. OK. What does that look like for this coming 
season in effect, I mean, with what you are putting out? Are we 
going to be able to fast forward this so they can utilize this 
tool effectively here in June, July, August, and September as 
they see a real world need?
    Ms. Christiansen. Yes. As the utilities come forward with 
their projects, that is my expectation to the regional 
foresters and what they have to report back to me on how they 
are getting themselves set up to be able to be responsive to 
those vegetation management requests from the utilities.
    Mr. LaMalfa. Because the bottom line we are looking at for 
others that are watching and listening, is that if you have a 
hazardous tree, a dead tree, or a leaning tree that could 
easily fall into a power line, you know, a 60-foot high tree, 
and the power lines are only 40 feet off the ground, then we 
know what that zone would look like.
    So, in a practical effect, if the utility has identified a 
tree or several trees in a zone like this that they feel 
strongly would be a threat like that, what is your ideal goal 
for the turnaround to be for that being brought to the 
attention of the Forest Service, say, on a Monday morning and 
being able to go out and remove the tree in question? What 
would you see as an ideal turnaround there?
    Ms. Christiansen. Well, Congressman, certainly that (a) we 
are responsive, we are providing good service, and we are being 
practical about it. And if it is an immediate threat, I would 
expect it to be taken care of.
    Mr. LaMalfa. I mean, I can't probably pin you down on a 
number of days, but truly, when we were talking before this 
legislation, it would be 6 months or longer to get permitting 
and all that. I would hope we are talking a week or two or 
sooner. Shoot, I would like to see maybe more discretion of the 
utility, that there is a little trust there, take a few 
pictures of it and say we removed it Monday because it was 
about to fall into it. We get two bad things: you get a 
blackout and you get, very likely, a forest fire.
    Go ahead, please.
    Ms. Christiansen. Certainly. There is guidance in the 
provisions that, I don't have in front of me, but I have made 
it known that we need to meet the time frames in the new 
provision, absolutely.
    Mr. LaMalfa. OK. Because, again, with the terrible fire 
season we had in northern California last year, I mean, our 
utilities are going to face a lot of blame and the brunt of a 
lot of scorn, and some of it is misplaced because I think as 
they have the latitude and ability, they are trimming back the 
tree hazard where that interface is.
    So, I look forward to working more with you on this and 
being effective on this. We know what the goal is, and it is a 
reasonable goal. I can't believe there is opposition to this 
here in the year 2018, that we are still identifying that when 
we have a hazardous tree, we need to get it away from the power 
lines, but indeed.
    So, in the practical effect of NEPA streamlining, what is 
the bottom line on that looking like with how you can 
streamline your NEPA process in a practical effect in the short 
term?
    Ms. Christiansen. Well, it is really looking at what tool 
is needed. Quite frankly, we don't believe we need a full EIS 
on every project when an environmental assessment may be 
appropriate. It is getting back into balance our risk tolerance 
with our folks, what is expected. It is really deconstructing 
all of our practices and policies and only doing the things 
that are needed for a quality environmental review. And holding 
ourselves and our leaders and the practitioners accountable, 
that we don't just start something and lose track of it, we 
have to be on time and on task.
    Mr. LaMalfa. Yes. Especially the frustration on how that 
applies to salvage after a fire has already occurred and we 
need that time of recovery. Thank you, Chief Christiansen.
    Thank you, Mr. Chairman.
    Mr. McClintock. Again, Chief Christiansen, thank you so 
much for your testimony today. We promised to get you out by 4 
o'clock, and I think we will be able to keep that promise.
    Our objectives are to restore public access to the public 
lands, restore good management to the public lands, and to 
restore the Federal Government as a good neighbor to those 
communities impacted by the public lands. And you will 
certainly have the full backing of this Subcommittee as you 
pursue those goals.
    Members of the Committee, in spite of all of the questions, 
we may have additional questions for you which we will submit 
in writing. Under our Committee Rules, Members will submit 
those questions within 3 business days, and then the hearing 
record will be kept open for 10 business days for those 
responses.
    If there is no further business to come before the 
Subcommittee, without objection, the Subcommittee stands 
adjourned.

    [Whereupon, at 3:53 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Rep. Grijalva Submission

        Center for Biological Diversity * Conservation Northwest
            Defenders of Wildlife * Earth Justice * KS Wild
         National Parks Conservation Association * Sierra Club
       The Wilderness Society * Western Environmental Law Center

                                                       June 7, 2018

Hon. Tom McClintock, Chairman,
Hon. Colleen Hanabusa, Ranking Member,
House Natural Resources Committee,
Subcommittee on Federal Lands,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman McClintock and Ranking Member Hanabusa:

    We write to provide our views on the oversight hearing to examine 
``Wildfire Risk, Forest Health, and Associated Management Priorities of 
the U.S. Forest Service.'' We respectfully request that you include 
this letter in the hearing record.

    We appreciate you taking the time to examine these important 
issues. Wildland fires play an important role in regulating ecosystems, 
but climate change, decades of fire suppression, unsustainable logging, 
and other activities have altered natural processes on our national 
forests and interconnected public lands. Meanwhile, more residential 
development near wildlands has increased the likelihood that fire will 
impact people and property, often with devastating consequences.

    Last year's record setting fire season contributed to a tragic loss 
of life and property that drained federal, state, and local resources. 
The stories and images of wildland fire engulfing homes and communities 
are heart wrenching, and those impacted often look to lawmakers and 
land management agencies wanting to know what, if anything, could have 
been done to prevent these losses.

    Fortunately, Congress recently took meaningful action by including 
a bipartisan fire funding agreement in the FY18 Omnibus. For years 
prior, the rising cost of wildland fires had forced the Forest Service 
and other land management agencies to borrow funds from other programs, 
including those intended to reduce fire risk near communities. By 
finally fixing how the federal government plans for and funds 
wildfires, Congress has provided the Forest Service with a unique 
opportunity to use their existing management tools and work with the 
public, states, and communities to address the needs of our national 
forests.

    Despite the wildfire funding fix having strong bipartisan support 
in both the House and Senate, this commonsense policy solution lingered 
for years, hamstrung by the demand to pair the budget fix with 
controversial forest management policies. When properly applied, 
science-based forest management tools can help restore national forests 
and other lands where needed and when paired with initiatives to create 
defensible space and community readiness, protect against the loss of 
life and property from wildland fire.

    However, proposals to undermine bedrock environmental laws and 
recklessly promote logging over clean water, recreation, and wildlife 
do nothing to improve the health of our national forests, while 
creating public controversy and opposition.

    Congress should resist legislating unsound logging projects and 
practices and allow the Forest Service to use the many existing tools 
it has at its disposal to help keep our communities safe from wildfire 
and preserve the priceless values that our national forests provide. 
The future of our national forests and public lands and the health and 
safety of our communities depend on the availability of adequate 
resources, science-based forest restoration, efforts to improve 
community readiness, and an understanding of the risks inherent to more 
development in fire prone areas. Reckless rollbacks of bedrock 
environmental laws like the National Environmental Policy Act, Roadless 
Rule, and Endangered Species Act are simply the wrong approach.
    We encourage Congress to continue the important oversight needed to 
ensure that our land management agencies are properly funded, equipped 
to respond to wildland fire, appropriately applying forest management 
tools, and protect the clean water, wildlife, and recreational values 
of our public lands.

    Thank you for considering our views.

            Sincerely,

        Center for Biological 
        Diversity                     National Parks Conservation 
                                      Assoc.

        Conservation Northwest        Sierra Club

        Defenders of Wildlife         The Wilderness Society

        Earth Justice                 Western Environmental Law Center

        KS Wild

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
